<html>
<title> - DEVELOPING A LEGISLATIVE SOLUTION TO THE INDIAN TRUST FUND LAWSUIT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
  DEVELOPING A LEGISLATIVE SOLUTION TO THE INDIAN TRUST FUND LAWSUIT

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

            Saturday, October 25, 2003, in Billings, Montana

                               __________

                           Serial No. 108-71

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

90-048              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel


                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Saturday, October 25, 2003.......................     1

Statement of Members:
    Rehberg, Hon. Dennis R., a Representative in Congress from 
      the State of Montana.......................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Hill, Vernon, Chairman, Eastern Shoshone Business Council, 
      Wind River Indian Reservation, Ft. Washakie, Wyoming.......    25
        Prepared statement of....................................    27
    Howe, Kayle, Executive Aide to Carl Venne, Chairman, Crow 
      Tribe of Indians...........................................    13
        Prepared statement of....................................    15
    Main, Jerome, Chairman, Fort Belknap Indian Community 
      Council, Harlem, Montana, Oral statement of................    35
    Matt, D. Fred, Tribal Council Chairman, Confederated Salish 
      and Kootenai Tribes, Pablo, Montana........................     3
        Prepared statement of....................................     6
    Russell, Majel M., Attorney at Law, Individual Crow Trust 
      Landowner..................................................    37
        Prepared statement of....................................    39
    Shields, Caleb, Chief of Staff, Assiniboine & Sioux Tribes of 
      the Fort Peck Reservation..................................    41
        Prepared statement of....................................    43
    Small, Geri, President, Northern Cheyenne Tribe, Lame Deer, 
      Montana....................................................    18
        Prepared statement of....................................    20
    St. Goddard, Jay, Blackfeet Tribal Business Council, 
      Browning, Montana, Oral statement of.......................    16
    Venne, Carl, Chairman, Crow Tribal Council, Crow Agency, 
      Montana, Prepared statement of.............................    15
    Windy Boy, Alvin, Sr., Chairman, Business Committee, Chippewa 
      Cree Tribe of the Rocky Boy's Reservation, Box Elder, 
      Montana....................................................     8
        Prepared statement of....................................    11

Additional materials supplied:
    Baucus, Hon. Max, a U.S. Senator from the State of Montana, 
      Statement submitted for the record.........................     8
    Sinclair, John, Tribal Chairman, Little Shell Tribe of 
      Chippewa Indians of Montana, Letter submitted for the 
      record.....................................................    51


OVERSIGHT HEARING ON ``DEVELOPING A LEGISLATIVE SOLUTION TO THE INDIAN 
                          TRUST FUND LAWSUIT''

                              ----------                              


                       Saturday, October 25, 2003

                     U.S. House of Representatives

                         Committee on Resources

                           Billings, Montana

                              ----------                              

    The Committee met, pursuant to call, at 10 a.m., in the 
Lewis and Clark Room, Montana State University Student Union 
Building, 1500 University Drive, Billings, Montana, Hon. Dennis 
Rehberg presiding.
    Mr. Rehberg. Good morning. I want to thank Troop 93 from 
Lockwood for taking their Saturday morning with us and joining 
us. And if you will all please rise and please present the 
colors.
    [Color Guard presentation and Pledge of Allegiance.]
    Mr. Rehberg. If you will remain standing, Mr. Windy Boy 
will give us an invocation.
    Alvin?
    Mr. Windy Boy. If you will bear with me, I am going to do 
my invocation in my native language, Cree.
    [Invocation.]

   STATEMENT OF THE HON. DENNIS REHBERG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF MONTANA

    Mr. Rehberg. Good morning and welcome to this hearing. I 
thank you for coming out on this Saturday morning. Can 
everybody in the back hear me OK?
    Audience. [Yes.]
    Mr. Rehberg. All right, great. Thank you.
    I am Denny Rehberg, representing the State of Montana in 
the U.S. Congress. I am a member of the Resources Committee, 
which is conducting this hearing.
    Let me begin by apologizing for the formality of this 
hearing, but this is an official congressional hearing so there 
are certain procedures that we must conform with.
    You will see that there are folks that are recording this 
hearing. It has to go through the various parliamentary 
procedures to make it the official hearing that we intend it to 
be.
    This is one, the first, in a series of hearings that will 
be conducted either throughout the country and/or in 
Washington, D.C.
    We have had a couple of hearings already since I have been 
in the U.S. Congress, elected in 2000, first sworn in in 2001, 
to deal with the Indian Trust Account situations.
     For those of us who have been involved in business and in 
perhaps a smaller level of government, the state government, it 
is incredible to find out that the Federal Government has so 
severely, in my estimation, mismanaged their trust 
responsibilities for so many years.
    I asked my staff to do the best they could to find a 
graphic that was presented in the first hearing about a year-
and-a-half ago that I attended in Washington, D.C. It was of 
the Philadelphia Inquirer, and it was a placard that was in the 
back of the Committee hearing. On this placard was the front 
page of this newspaper. It was dated 1876.
    And on that date, reported on the front page of that 
newspaper, I have the quote. It said the mismanagement of the 
Indian Trust Funds dates back to the 1880s. In fact, an article 
in a July 6, 1876, newspaper--Philadelphia Press--not 
Inquirer--described the gross irregularities in the investment 
of the Indian Trust Fund by officers of the government.
    On the same page of that newspaper that day they were 
announcing the death of General George Custer in Montana.
    That will tell you how long this problem has existed. 
That's unacceptable, as far as we're concerned.
    Now, as we try and make our way through the various 
lawsuits that are presented on behalf of the tribes around the 
country, and as Congress tries to deal with the problem that 
exists, Chairman Pombo has asked if perhaps there is a 
legislative solution.
    Most of us want to be alive when this is solved. There's no 
guarantee of that once it gets into the court process. And I 
think you all recognize that as well.
    So, this hearing is an attempt on the Chairman's part to 
find out if there's a desire to enter into the possibility of a 
legislative solution.
    You know, one of the things that those of us in government 
are really good at doing is throwing up our hands and saying, 
let somebody else figure it out; we'll just not deal with 
something that's either sensitive, controversial or complex.
    This chairman, Chairman Pombo, intends to be a different 
kind of a Resources Committee chairman.
    There has been a bill introduced by Chairman--Mr. Campbell 
in the Senate. If you want to talk briefly about it as well, I 
am not well-versed in Mr. Campbell's piece of legislation. 
That's not our intent today.
    Our intent today is to open up the microphone to you all; 
give you an opportunity to have your say on an issue that we 
believe to be very important to you personally, to your tribes 
and ultimately to the people of America to try and come to a 
successful conclusion before the year 2050 or beyond. And so 
that is our intent; that is our reason for being here.
    [The prepared statement of Mr. Rehberg follows:]

Statement of The Honorable Denny Rehberg. a Representative in Congress 
                       from the State of Montana

    Good morning everyone and welcome to this meeting of the U.S. House 
of Representatives Committee on Resources. This field hearing is a way 
for us to bring the legislative process to you so that we can get 
feedback from folks who might not get the opportunity to testify at a 
hearing in Washington, D.C. I expect that this will be a productive 
meeting, what with so many participants--we have several leaders of the 
Montana tribes here. I'd also like to thank the folks at MSU-Billings 
for letting us use this great room.
    The purpose of this hearing is to explore what a legislative 
resolution to the Indian trust fund lawsuit might consist of. Chairman 
Pombo and I--and other Members of the Committee--feel strongly about 
this topic and we wanted to get close to Indian Country and away from 
Washington, D.C., to hear from some of the people who are most affected 
by this issue.
    There is a general feeling that the trust fund lawsuit could drag 
on for many more years and cost billions of dollars, while the 
individual Indian money account holders get no accounting and get no 
money they may be owed by the government. My continued interest is in 
reaching consensus and solving this highly charged issue. That's why we 
want to hear from you--so we can get an idea of what the Tribal Members 
are looking for in a solution. Then, hopefully, the Committee will be 
better able to examine various reform proposals.
    I'd like to thank all the witnesses for coming here today--some of 
you traveled long distances without a lot of notice. I look forward to 
hearing all of the witnesses' statements.
                                 ______
                                 
    Mr. Rehberg. The one thing that I am required to do and, if 
you will bear with me, part of the procedure is to swear you in 
as witnesses. So if you will please rise and repeat after me.
    [Witnesses sworn.]
    Mr. Rehberg. Thank you very much. I would like to remind 
our witnesses today to please limit their oral statements to 5 
minutes. Your entire written statement will appear in the 
record.
    At this time, since I had no preestablished order, if you 
don't mind, why don't we start with Chairman Matt and begin 
with you, Fred. Thank you for being here.

 STATEMENT OF FRED MATT, TRIBAL COUNCIL CHAIRMAN, CONFEDERATED 
                   SALISH AND KOOTENAI TRIBES

    Mr. Matt. Thank you. Greetings to you, Congressman Rehberg, 
and welcome to Montana.
    You know, I think it is probably good for you to come back 
every once in a while and smell the roses and feel the nice 
cool air of fall, and so I appreciate this Committee tackling 
this venture, because it is huge. It has affected Indian 
country across the board. It has caused us tribal leaders to 
sit at the table and try to come up with ideas of how to help 
resolve this.
    I have a prepared statement that I would like to read, and 
I did submit some copies of a more lengthy written statement. I 
will try to be brief, and I will try to stay within the 
confines, and bear with me.
    Prior to this hearing, we did have--we didn't have 
sufficient time, the Tribal Council, to consider and adopt a 
formal position with respect to congressional legislation 
addressing the Cobell litigation involving Indian trust funds 
management. However, I am pleased to be able to provide this 
Committee with my own views on the issue.
    The Salish-Kootenai Tribes have been very active in Indian 
trust fund management. Not only have we participated in the 
many Intertribal discussions on how best to resolve the 
problems with Federal management of these trust funds, but we 
have also taken a more direct approach. We have contracted 
under the Self--Tribal Self-Governance Act--to manage our own 
trust funds accounts.
    I am happy to report to you that the tribal government and 
the tribal members alike are very happy with our experience in 
taking over administration of the Federal functions, trust 
functions.
    Due to our experience, we have a unique insight into the 
trust funds management issue since we can view it from a 
perspective of both accounts manager and accounts holder.
    As managers of these accounts, we can appreciate the 
complexities in resolving the administration and accounting 
issues.
    As an account holder, we know as well as everyone that 
Federal mismanagement of these trust funds has long worked 
great injustices to the many tribal and individual Indian 
beneficiaries, injustices that would have not been tolerated 
had they occurred in any other segment of American society.
    We appreciate that Congress is continuing to look at ways 
to correct these injustices and to prevent mismanagement in the 
future.
    As you are aware, the filing of the Cobell litigation has 
resulted in the trust funds mismanagement issue receiving the 
attention that it requires. Unfortunately, that litigation was 
filed over 7 years ago, and it was only within the last month 
that a decision was rendered by the Federal District Court. In 
short, the litigation is an extremely lengthy process, and I 
believe it is both appropriate and productive for Congress to 
try its hand at a remedy for the situation.
    One thing we feel strongly about is the potential for the 
Congress to spend up to $9 billion doing the historical 
accounting that Judge Lanberth ordered. To date, millions of 
dollars have been directed to accounting firms, while the 
Indian people who may be owed money have received nothing. I am 
particularly concerned about our elders who may not last the 
additional years it will take for the accounting to take place 
and for the litigation and the appeals to run their course.
    If the Congress has that kind of money, it could go toward 
a compensation fund. It could also be spent on tribal land 
consolidation which alleviates the problems associated with 
fractionated heirship of land and the accounting nightmares 
that accompany trust income associated with property that may 
be owned by hundreds and even thousands of people.
    We have also been long opposed to the concept of a receiver 
being appointed to manage Indian trust funds and, frankly, are 
a little concerned about that proposal. It is critical that we 
not lose the flexibility we now have with the BIA to meet the 
new standards and may be practically unobtainable.
    A few days ago, your colleagues in the Senate introduced a 
bill, S. 1770, which is called the ``Indian Money Account 
Claims Satisfaction Act of 2003.'' Our Tribal staff is still in 
the process of reviewing that legislation. However, I would 
generally support the bill's approach in that it would provide 
individual Indian account holders with a menu of options for 
addressing the problem.
    Specifically, the bill lays out three alternative 
approaches. The first option involves the establishment of an 
Indian Money Account Claims Satisfaction (IMACS) Task Force 
which would be charged with analyzing trust records and 
accounts; developing methodologies for an accounting; and, 
subsequently determining the balances of individual accounts.
    If the account holders agree with the determination, then 
the bill establishes a mechanism by which the Interior 
Secretary would then make a full payment in the amount 
determined, in exchange for a signed accord and satisfaction. 
Upon completion of this, the individual account holders would 
be dismissed from the Cobell class action litigation.
    However, if an individual did not agree with the IMACS Task 
Force determination, a second option would allow the individual 
to submit the issue to an arbitration tribunal which the bill 
could create. The arbitration would be binding on both the 
individual and the Federal Government and, like the first 
option, would also result in the individual being dismissed 
from the class action litigation.
    The third option in S. 1770 is for the individual to remain 
part of the Cobell class action litigation. I should note that, 
like the Cobell litigation, S. 1770 does not directly address 
trust fund accounts where tribes themselves are the account 
holders.
    I would also like to emphasize that I believe that it is 
important to remember that tribes themselves can be part of the 
solution. Allowing tribal governments, like the Confederated 
Salish and Kootenai Tribes, who contract administration for 
trust fund accounts to continue our successful trust management 
programs can help to prevent future problems.
    Tribal governments are the closest to the trust 
beneficiaries, and we have the strongest motivation to properly 
handle these monies for our constituents. That is why we have 
pressed for inclusion of the Trust Reform Demonstration Project 
(section 134) in Fiscal Year 2004 Interior appropriations bill 
(S. 1391). This demonstration project would ensure our ability 
to continue this effective management without being impaired by 
the reorganization of trust functions within the Interior.
    On behalf of our Tribal Council, I would like to thank 
Congressman Pombo, Chair of this Committee, for his strong 
support of this amendment and for the September 30 letter to 
the Chairman of the House Interior Appropriations Subcommittee. 
We are likewise grateful for the support of the Resources 
Committee members.
    Over the last decade, a great deal of energy and resources 
has gone into trust funds management issues. This is true of 
all three branches of Federal Government, as well as scores of 
Tribal governments. On behalf of the Confederated Salish and 
Kootenai Tribes, I welcome congressional efforts to bring 
relief to individual Indian account holders.
    As Judge Lamberth recounted in his decision on the Cobell 
case, Congress was a catalyst on this issue through its 1992 
House Report titled ``Misplaced Trust: The Bureau of Indian 
Affairs' Mismanagement of the Indian Trust Fund.''
    The Senate bill and this oversight hearing demonstrate that 
Congress is not content to set on its hands while the issue is 
examined by its sister branches of government. I believe this 
engagement by Congress, with active participation from tribal 
governments and individual account holders, can be productive 
in reaching a solution to a long-standing problem.
    Mr. Chairman, I thank you for the opportunity to provide my 
views to this Committee.
    Mr. Rehberg. Thank you, Chairman Matt.
    [The prepared statement of Mr. Matt follows:]

          Statement of D. Fred Matt, Tribal Council Chairman, 
                 Confederated Salish & Kootenai Tribes

    Greetings Congressman Rehberg. Welcome back to Montana. My name is 
Fred Matt and I serve as the Chairman of the Confederated Salish & 
Kootenai Tribal Council. Thank you for the opportunity to provide my 
views to the House Resources Committee.
    Prior to this hearing, we did not have sufficient time for the 
Tribal Council to consider and adopt a formal position with respect to 
Congressional legislation addressing the Cobell litigation involving 
Indian trust funds management. However, I am pleased to be able to 
provide the Committee with my own views on the issue.
    The Salish and Kootenai Tribes have been very active in the area of 
trust funds management. Not only have we participated in the many 
intertribal discussions on how best to resolve the problems with 
federal management of these trust funds, but we have also taken a more 
direct approach: We have contracted under the Tribal Self-Governance 
Act to manage our own trust fund accounts. I am happy to report to you 
that our Tribal government and Tribal members alike are very happy with 
our experience in taking over administration of this federal trust 
function.
    Due to our experience, we have a unique insight into the trust 
funds management issue since we can view it from the perspectives of 
both the accounts manager and account holders. As manager of these 
accounts, we can appreciate the complexities in resolving the 
administration and accounting issues. As an account holder, we know as 
well as anyone that federal mismanagement of the trust funds has long 
worked great injustices to the many Tribal and individual Indian 
beneficiaries--injustices that would not have been tolerated had they 
occurred in any other segment of American society. We appreciate that 
Congress is continuing to look at ways to correct these injustices and 
to prevent mismanagement in the future.
    As you are aware, the filing of the Cobell litigation has resulted 
in the trust funds mismanagement issue receiving the attention that it 
requires. Unfortunately, that litigation was filed over seven years ago 
and it was only last month that a decision was rendered by the federal 
district court. In short, the litigation is an extremely lengthy 
process. I believe it is both appropriate and productive for Congress 
to try its hand at a remedy for the situation.
    One thing we feel strongly about is the potential for the Congress 
to spend up to $9 billion doing the historical accounting that Judge 
Lamberth ordered. To date, millions of dollars have been directed to 
accounting firms while the Indian people who may be owed money have 
received nothing. I am particularly concerned about our elders who may 
not last the additional years it will take for the accounting to take 
place and for the litigation and the appeals to run their course. If 
the Congress has that kind of money, it could go toward a compensation 
fund. It could also be spent on tribal land consolidation which 
alleviates the problems associated with fractionated heirship of lands 
and the accounting nightmares that accompany trust income associated 
with property that may be owned by hundreds and even thousands of 
people.
    We have also been long opposed to the concept of a receiver being 
appointed to manage Indian trust funds and, frankly, are a little 
concerned about that proposal. It is critical that we not lose the 
flexibility we now have if the BIA has to meet new standards that may 
be practically unobtainable.
    A few days ago, your colleagues in the Senate introduced a bill, S. 
1770, which is called the ``Indian Money Account Claim Satisfaction Act 
of 2003.'' Our Tribal staff is still in the process of reviewing that 
legislation. However, I would generally support that bill's approach in 
that it would provide individual Indian account holders with a menu of 
options for addressing the problem. Specifically, the bill lays out 
three alternative approaches.
    The first option involves the establishment of an Indian Money 
Account Claim Satisfaction (IMACS) Task Force which would be charged 
with analyzing the trust records and accounts, developing methodologies 
for an accounting, and subsequently determining the balances of 
individual accounts. If the account holder agrees with the 
determination, then the bill establishes a mechanism by which the 
Interior Secretary would then make a full payment in the amount 
determined, in exchange for a signed accord and satisfaction. Upon 
completion of this, the individual account holder would be dismissed 
from the Cobell class action litigation.
    However, if the individual did not agree with the IMACS Task Force 
determination, a second option would allow the individual to submit the 
issue to an arbitration tribunal, which the bill would create. That 
arbitration would be binding on both the individual and the federal 
government and, like the first option, would also result in the 
individual being dismissed from the class action litigation.
    The third option in S. 1770 is for the individual to remain part of 
the Cobell class action litigation.
    I should note that, like the Cobell litigation, S. 1770 does not 
directly address trust fund accounts where Tribes themselves are the 
account holders/beneficiaries.
    I would also like to emphasize that I believe it is important to 
remember that Tribes themselves can be part of the solution. Allowing 
Tribal governments, like the Confederated Salish & Kootenai Tribes, who 
contract administration of trust fund accounts, to continue our 
successful trust management programs can help to prevent future 
problems. Tribal governments are the closest to the trust 
beneficiaries, and we have the strongest motivation to properly handle 
these monies for our constituents. That is why we have pressed for 
inclusion of a Trust Reform Demonstration Project (Section 134) in the 
FY'04 Interior appropriations bill (S. 1391). This demonstration 
project would ensure our ability to continue this effective management 
without being impaired by any reorganization of trust functions within 
the Interior Department. On behalf of our Tribal Council, I would like 
to thank Congressman Pombo, Chair of this Committee, for his strong 
support of this amendment and for his September 30, 2003, letter to the 
Chairman of the House Interior Appropriations Subcommittee. We are 
likewise grateful for the support of other Resources Committee members.
    Over the last decade, a great deal of energy and resources has gone 
into the trust funds management issue. This is true of all three 
branches of the federal government, as well as scores of Tribal 
governments. On behalf of the Confederated Salish & Kootenai Tribes, I 
welcome Congressional efforts to bring relief to individual Indian 
account holders. As Judge Lamberth recounted in his decision on the 
Cobell case, Congress was a catalyst on this issue through its 1992 
House Report, titled ``Misplaced Trust: The Bureau of Indian Affairs' 
Mismanagement of the Indian Trust Fund.''
    The Senate bill and this oversight hearing demonstrate that 
Congress is not content to sit on its hands while the issue is examined 
by its sister branches of government. I believe this engagement by 
Congress, with active participation from Tribal governments and 
individual account holders, can be productive in reaching a solution to 
a long-standing problem.
    Mr. Chairman, thank you for the opportunity to provide my views to 
this Committee.
                                 ______
                                 
    Mr. Rehberg. One of the things a chairman gets to do is 
admit mistakes, so I need to very quickly. I apologize, Liz, 
for having forgotten to read Senator Baucus' letter. I will do 
that now without objection.
    There is no objection?
          ``I am sorry I can't be with you today, but Senate 
        business has kept me in Washington. I am working on 
        health care legislation to provide all seniors with a 
        quality, affordable prescription drug benefit. In 
        addition, I am working hard on an energy bill to ensure 
        reliable affordable energy for Montana families, 
        businesses and tribes.
          ``It's clear that the Federal Government has 
        abdicated it is responsibility--Max knows bigger words 
        than me--of properly managing Indian trust funds. 
        Unfortunately, the Federal Government's mismanagement 
        has severely damaged tribal economies. Thousands of 
        Native Americans across the country have unanswered 
        questions. It is long overdue to get to the bottom of 
        the issue, inject some accountability into the system, 
        and working with tribal leaders, enact real trust 
        reform.
          ``On October 21st, Senator Ben Nighthorse Campbell 
        introduced the Indian Money Account Claim Satisfaction 
        Act of 2003 in the Senate that in his words, 'would 
        establish a voluntary, alternative claims resolution 
        process to reach settlement of the Cobell v. Norton 
        Class Action Lawsuit.' I encourage you to share with me 
        your thoughts and views on this legislation.
          ``I would like to thank Congressman Rehberg for 
        holding this important hearing today. By working 
        together we can make a difference.''
    Thank you, Senator Baucus. It will be put in to the record.
    [The statement submitted for the record by Senator Baucus 
follows:]

    Statement of The Honorable Max Baucus, a U.S. Senator from the 
                            State of Montana

    I'm sorry I can't be with you today, but Senate business has kept 
me in Washington. I'm working on health care legislation to provide all 
seniors with a quality, affordable prescription drug benefit. In 
addition, I'm working hard on an energy bill to ensure reliable, 
affordable energy for Montana families, businesses and tribes.
    It's clear that the federal government has abdicated its 
responsibility of properly managing Indian trust funds. Unfortunately, 
the federal government's mismanagement has severely damaged tribal 
economies. Thousands of Native Americans across the country have 
unanswered questions. It's long overdue to get to the bottom of the 
issue, inject some accountability into the system, and working with 
tribal leaders, enact real trust reform.
    On October 21st, Senator Ben Nighthorse Campbell introduced the 
Indian Money Account Claim Satisfaction Act of 2003 in the Senate that 
in his words ``would establish a voluntary, alternative claims 
resolution process to reach settlement of the Cobell vs. Norton class 
action lawsuit.'' I encourage you to share with me your thoughts and 
views on this legislation.
    I would like to thank Congressman Rehberg for holding this 
important hearing today. By working together we can make a difference.
                                 ______
                                 
    Mr. Rehberg. Also, we would like to thank MSU Billings for 
allowing us the use of this tremendous facility. They have been 
kind over the years to us in allowing us to do this, and it is 
very much appreciated. Thank you, MSU Billings.
    All right, Chairman Windy Boy.

     STATEMENT OF ALVIN WINDY BOY, SR., CHAIRMAN, BUSINESS 
 COMMITTEE, CHIPPEWA CREE TRIBE OF THE ROCKY BOY'S RESERVATION

    Mr. Windy Boy. Thank you, Congressman Rehberg.
    Greetings from north central Montana, up by the Canadian 
border, home of the Cree and Chippewa people. I am a third-
generation rancher. We hope the prices are going to hang for 
another 10 years.
    We want to thank you for your invitation to testify today. 
Like Chairman Matt, I do have a prepared statement for the 
record. I do have a prepared statement. I would also like to 
read.
    Like Chairman Matt and Salish-Kootenai, Chippewa Cree Tribe 
do operate through a contract with both the Indian Health 
Service and the Bureau of Indian Affairs. An initiative that we 
feel is certainly indicative of the Chippewa and Cree Tribes of 
assuming a lot of responsibilities, those responsibilities that 
were always given to us, or provided by the United States 
government that allows us the flexibility to provide better 
services.
    To me, unfortunately, a number of initiatives that arose 
recently are going to be imperative in how we deliver those 
services. Certainly, with this Cobell v. Norton case, certainly 
is going to effect my tribe.
    But if you don't mind. I would like to read my statement.
    Mr. Rehberg. Certainly.
    Mr. Windy Boy. I would also like to have you extend my 
greetings to Chairman Pombo and let him know we appreciate his 
authorization for this hearing. In his short tenure as Chairman 
of the Resources Committee, he's really off to great start in 
the eyes of many of us in Indian country.
    Again, thank you for holding this oversight hearing on 
developing a legislative solution to the Indian trust fund 
lawsuit.
    This, Congressman, is an important issue to all tribes 
because the effects of the Cobell v. Norton lawsuit impact all 
of Indian country, no matter how large or small your or our 
tribes is.
    I say this because the Cobell case is not just about money, 
such as an accounting and determination of accurate account 
balances, but equally as important to ensure that reforms are 
in place so that the United States can bring itself into 
compliance with its fiduciary duties to both tribal individuals 
and to tribes.
    It is also important because the reforms will affect the 
manner in which programs are run, whether those programs are 
directly operated by the Bureau of Indian Affairs, or whether 
they are managed by the Tribes such as the Chippewa and Cree 
Tribes, who operate all our programs on the reservation.
    Although my tribe is the smallest in Montana in terms of 
population and land base, we are significantly affected by the 
Cobell case, as it is leading to the reorganization and 
reengineering of the Bureau of Indian Affairs.
    It really hurts us at the reservation level to have 
critical funding diverted from tribal programs and be 
reallocated to the reorganization hierarchy at the Bureau of 
Indian Affairs to pay for litigation costs with both the 
individual and tribal cases.
    I say this because the funding increases for Indian 
programs have been nonexistent in the Interior Appropriations 
bill, especially within the Tribal Priority Allocations (TPA) 
budget that funds basic governmental services to our people. 
The Office of Special Trustee for American Indians (OST) is 
slated to receive an 82 percent budget increase, which amounts 
to $274.6 million in President Bush's Fiscal Year 2004 budget. 
Of this amount, 130 million is supposed to be used to complete 
reconciliation of more than 15,000 individual IIM Accounts and 
reconcile translations related to the accounts.
    Mr. Chairman, I am here today to inform the Committee that 
it is imperative that we have congressional assistance in 
correcting the trust funds accounting problems that have 
plagued the Department of the Interior for years. It has been 
over a decade since Congress first ordered the Department to 
conduct an accounting for Indian trust funds. Indian country 
cannot and should not have to wait any longer. Ten years and 
over $600 million spent on trust reform and still no 
accounting. Mr. Chairman, Congress must act now.
    The legislative involvement and settlement process, the 
reorganization of the Chippewa and Cree Tribes is in 
structuring any type of legislative solution, I would recommend 
that all the necessary parties be at the table. Of course, the 
litigants and their representatives must be involved in any 
settlement process, and I would also strongly recommend that 
tribes be a part of the process to the extent that tribal 
interests are affected.
    Tribes have certainly made it clear that there are numerous 
aspects of the Cobell case that affect our interests, 
especially regarding trust reform.
    It will be very helpful if senior members of the 
authorizing committees of both houses of Congress get involved 
to ensure that all parties come and discuss resolutions in good 
faith.
    The involvement of a mediator, to me, would be essential. 
The mediator could be a person with significant political 
experience and respect since they must hold parties to a good-
faith effort to resolving the dispute.
    The scope of the settlement issues must be predetermined so 
that negotiations will not reopen issues that have already been 
settled by the court.
    Previously settled issues by the court should determine the 
necessary legal parameters of any settlement discussions.
    The court in Cobell has divided the case into accounting 
issues and trust reform issues, and it makes sense to keep the 
same sort of division for any type of settlement legislation or 
process.
    And there should be no preset cap for the settlement.
    We must also have full disclosure of material documents and 
facts in any settlement process. In addition, the government 
should have the burden of providing to tribes all records from 
all government agencies and contractors pertaining to the trust 
fund claims.
    Another important issue to tribes is the assurance that any 
settlement claims be recovered from the Judgment Fund, which I 
believe is 31 U.S.C. 1304, and can be accessed to cover the 
cost of any settlement. In addition, the settlement funds 
should not have to be recovered from future Interior 
appropriations for Indian programs. This would be 
counterproductive to Indian country and our already underfunded 
programs.
    We oppose, the Chippewa Cree Tribe opposes putting riders 
on appropriations bill to deal with this issue and would urge 
the Congress to not establish or entertain such provisions. 
Tribes, again, must be involved in helping to craft a 
compromise on this, and we have had no input into the language 
of any rider yet.
    As a Self Governance Tribe, we are concerned about how the 
trust reform will affect us. We hope that trust reform doesn't 
create a situation or ability to have some flexibility in how 
we operate the programs is lost. We are concerned that 
litigation will lead to stifling degrees of process, procedure 
and standards to the point where all tribes must adhere to 
methodologies that are counter to our present successful 
operations.
    In closing, we are again appreciative that we have held 
this hearing, and we do think it is important for Congress to 
help broker a settlement to the Cobell case.
    We can see no benefit in spending the next 5 years in 
litigation and nonstop accounting.
    We have only just received the new Campbell/Inouye/Domenici 
Bill, Senate Bill 1770, the Indian Money Account Claim 
Satisfaction Act of 2003. The concepts of reaching a settlement 
as conceived of in that legislation are interesting, and I may 
supplement my testimony after I have had an opportunity to sit 
down with, like Chairman Matt, with my staff and read the 
legislation and discuss that with our staff In reference to the 
way that we do business in Indian country.
    It is certainly different even in your state with the seven 
tribes. My objective is to make sure we that don't disturb what 
is already working for us. The way that we provide those 
governmental service to our people certainly is indicative of a 
government-to-government relationship that we have had.
    The Chippewa Cree Tribe certainly has compacts already in 
place with Bureau of Reclamation, Bureau of Land Management, 
and the list goes on. And I am afraid if reform does happen, 
that may create an additional bureaucracy for the Chippewa Cree 
Tribe.
    Mr. Rehberg. Thank you.
    Alvin Windy Boy. I am certainly in support of any direction 
that this Committee takes and would be also supportive of 
sitting down and creating some direction.
    [The prepared statement of Mr. Windy Boy follows:]

   Statement of Alvin Windy Boy, Sr., Chairman, Business Committee, 
           Chippewa Cree Tribe of the Rocky Boy's Reservation

INTRODUCTION
    Congressman Rehberg, thank you for your invitation to testify 
today. My name is Alvin Windy Boy Sr., I serve as the Chairman of my 
tribe, the Chippewa Cree Tribe of the Rocky Boy's Reservation. Please 
extend my greetings to Chairman Pombo, and let him know we appreciate 
his authorization of this hearing. In his short tenure as Chairman of 
the Resources Committee, he is really off to a great start in the eyes 
of many of us in Indian country.
    Thank you for holding an oversight hearing on ``Developing a 
Legislative Solution to the Indian Trust Fund Lawsuit.''
    This is an important issue to all tribes because the effects of the 
Cobell v. Norton lawsuit impact all of Indian Country, no matter how 
large or small your tribe is. I say this because the Cobell case is not 
just about money, such as an accounting and determination of accurate 
account balances; but equally as important, to ensure that reforms are 
in place so that the U.S. can bring itself into compliance with its 
fiduciary duties to both tribal individuals and to the tribes. It is 
also important because the reforms will affect the manner in which 
programs are run, whether those programs are directly operated by the 
BIA, or whether they are managed by tribes such as the Chippewa Cree 
who operate all programs on our reservation.
    Although my tribe is the smallest in Montana in terms of population 
and land base, we are significantly affected by the Cobell case as it 
is leading to the reorganization and reengineering of the Bureau of 
Indian Affairs.
    It really hurts us at the reservation level to have critical 
funding diverted from tribal programs and be reallocated to the 
reorganization hierarchy at the BIA and to pay for litigation costs 
associated with both the individual and tribal cases. I say this 
because funding increases for Indian programs have been nonexistent in 
the Interior Appropriations bill, especially within the Tribal Priority 
Allocations (ATPA) budget that funds basic governmental services to our 
people. The Office of Special Trustee for American Indians (OST) is 
slated to receive an 82% budget increase (to $274.6 million) in 
President Bush's FY 2004 budget. Of this amount, $130 million is 
supposed to be used to complete reconciliation of more than 15,000 
Individual Indian Money (IIM) accounts and reconcile transactions 
related to the accounts.
    Mr. Chairman, I am here today to inform the Committee that it is 
imperative that we have Congressional assistance in correcting the 
trust funds accounting problems that have plagued the Department of the 
Interior for years. It has been over a decade since Congress first 
ordered the Department to conduct an accounting for Indian trust funds. 
Indian country cannot, and should not, have to wait any longer. Ten 
years and over $600 million spent on trust reform and still no 
accounting. Mr. Chairman, Congress must act now.

LEGISLATIVE INVOLVEMENT AND SETTLEMENT PROCESS
    In structuring any type of legislative solution, I would recommend 
that all the necessary parties be at the table. Of course, the 
litigants and/or their representatives must be involved in any 
settlement process, and I would also strongly recommend that tribes be 
part of the process to the extent that tribal interests are affected. 
Tribes have made it clear that there are numerous aspects of the Cobell 
case that affect our interests, especially regarding trust reform.
    It will be very helpful if senior members of the authorizing 
committees of both Houses of Congress get involved to ensure that all 
parties come and discuss resolutions in good faith.
    The involvement of a mediator will be essential. The mediator 
should be a person with significant political experience and respect 
since they must hold the parties to a good faith effort to resolving 
the dispute.
    The scope of the settlement issues must be pre-determined so that 
negotiations will not re-open issues that have already been settled by 
the court.
    Previously settled issues by the court should determine the 
necessary legal parameters for any settlement discussions.
    The court in Cobell has divided the case into accounting issues and 
trust reform issues. It makes sense to keep the same sort of division 
for any type of settlement legislation or process.
    There should be no pre-set cap for the settlement.
    We must have full disclosure of material documents and facts in any 
settlement process. In addition, the government should have the burden 
of providing to tribes all records from all government agencies and 
contractors pertaining to the trust fund claims.
    Another important issue to tribes is the assurance that any 
settlement claims be recovered from the Judgment Fund, 31 U.S.C. 1304 
can be accessed to cover the cost of any settlement. In addition, the 
settlement funds should not have to be recovered from future Interior 
appropriations for Indian programs. This would be counterproductive to 
Indian country and our already underfunded programs.
    We oppose putting riders on appropriations bills to deal with this 
issue and would urge the Congress to not entertain such provisions. 
Tribes must be involved in helping to craft a compromise on this and we 
have had no input into the language of any rider.
    As a Self-Governance Tribe we are concerned about how trust reform 
will affect us. We hope that trust reform doesn't create a situation 
where our ability to have some flexibility in how we operate the 
programs is lost. We are concerned that the litigation will lead to 
stifling degrees of process, procedure and standards to the point where 
all tribes must adhere to methodologies that are counter to our present 
successful operations.
    In closing we are again appreciative that you have held this 
hearing, and we do think it is important for the Congress to help 
broker a settlement to the Cobell case. We can see no benefit in 
spending the next five years in litigation and non-stop accounting. We 
have only just received the new Campbell/Inouye/Domenici bill, S. 1770, 
the Indian Money Account Claim Satisfaction Act of 2003. The concepts 
for reaching a settlement as conceived of in that legislation are 
interesting and I may supplement my testimony after I have had an 
opportunity to sit down and read that legislation and discuss it with 
our tribal attorney.
    Again, thank you.
                                 ______
                                 
    Mr. Rehberg. Thank you, Chairman Windy Boy.
    I used to tell a joke about reform, that people support 
reform as long it doesn't change anything. Sometimes we worry 
that the change is, in fact, worse than the problem in the 
first place.
    I will announce at the end of the hearing that the record 
be left open for additional comments or answering questions 
that the rest of the Committee might have of you all. So any 
comments that you have about the Campbell bill and such that 
will help the Committee better understand this issue would 
certainly be welcomed. Just know that the record will remain 
open for a period of time. But, I will announce that formally 
at the end of the hearing.
    Next, I would like to introduce Mr. Kayle Howe, who is here 
today representing Carl Venne, Chairman of the Crow Tribe.
    Mr. Howe.

          STATEMENT OF KAYLE HOWE, EXECUTIVE AIDE TO 
          CARL VENNE, CHAIRMAN, CROW TRIBE OF INDIANS

    Mr. Howe. Thank you, Mr. Rehberg, Congressman Rehberg.
    My name is Kayle Howe, and I am here today with my legal 
counsel, Mr. James Yellowtail. I just make that for the record.
    And we would also apologize for Mr. Venne not being able to 
be here today. Chairman Venne is on his way to Las Vegas to be 
a part of the hearing that is being held there by, I believe 
Ross Swimmer. I don't know his actual function at this time.
    However, we do appreciate the fact that we have the 
opportunity to address an issue that is very large in its 
capacity. It encompasses quite a few natives throughout the 
nation, and it does bring to light the fact that we do have 
this Cobell case having been brought to light on the fact that 
there are many, many Indians that are being afflicted by this.
    Particularly on the Crow Reservation, we have I believe 1.2 
million acres of individually owned trust land, and we have 
7,303 IIM accounts that this will directly accounts, and which 
encompasses 460,000 acres of trust land on my reservation.
    My reservation consists of 2.3 million acres, and 
therefore, this problem that we perceive is enormous. And I 
know that the animosity of the whole thing is that we have 
11,000,000 acres nationwide being protected by the government, 
and so this problem is enormous.
    And the Crow Tribe is very concerned as to how we come to 
some kind of litigation settlement and see that the members of 
the tribe of which we are responsible for as well as the 
Federal Government.
    In 1948, there was an Act passed. It was the Competent 
Lease Act. Any member that owned land under five, came under 
the Competent Lease Act, and so there was indirect payments 
made.
    That accounting is not possibly trackable, however, it 
could be, but the length of what things are taking place now, 
it is going to be a lot greater to try and find out what 
amounts of money are actually missing and actually put in to 
place.
    So, we would ask that if these statutory laws that are 
being put in place would encompass all of this in 
consideration, that it would benefit the tribal members as well 
as the tribes in which they work hand-in-hand.
    As my associate, Mr. Windy Boy, had mentioned earlier, it 
is to the benefit of the tribe and tribal members that this Act 
should be encompassed. However, not always is it possible for 
the government to come back, ask these questions and give them 
the opportunity to address these things.
    We really very greatly appreciate the fact that you are 
holding this hearing today and giving us the opportunity to 
make such a presentation on behalf of the tribe.
    We have fractionated lands of individually owned lands 
because of five members or more become heirs.
    The Bureau of Indian Affairs is directly responsible for 
overseeing the monies that are disseminated to the members. And 
in accounting errors that we have seen and heard by way of 
Cobell v. Norton, it is just an atrocity that the tribe has to 
suffer such problems that we have seen in the nation's 
newspapers, USA Today, everybody has published them; everybody 
is aware of this. We all have the ideas of how to solve the 
problems, but what we adopt to depend on is Congress, the 
United States congressional body, for they were given the 
fiduciary duty to pass on to the Bureau of Indian Affairs, who 
has established under the Department of Interior, and we at 
home wonder how and where is somebody going to come up with a 
solution that is going to benefit us as Indians.
    We have this problem, and it is always a negative impact on 
the funding and the delivery of services to the Crow Tribe 
because we are so far away. We have other members that are 
involved in the Congress, and they are not necessarily aware of 
the problem they have here in Montana.
    However, I believe we have a good representative, such as 
yourself and others, that will try and resolve the problems we 
have, and so we felt very confident in coming here today.
    The Crow Tribe believes that any process that allowed the 
Indians an option to opt out of the suit, may it be a lot 
quicker, we would look and entertain these options.
    And I believe there were three options given to us. We 
would try and entertain that as part of the prerogative that 
would give the individual owners as well as the tribe a lot 
more leeway of getting to the bottom of this.
    As it was said here earlier, we do need to get on with 
business, and we do not need to be sitting in litigation 
fighting over all the money that --we need money as well as 
everybody else; every other government needs money.
    We, as a tribe, own one-tenth of all the land that is under 
management by the Federal Government, and we would like to see 
our members receive the services and the monies that were 
suppose to be going to them. However, through problem areas of 
not following competently accounting procedures and everything 
of this nature, we were not able to foresee this problem until 
Cobell brought it to light.
    Cobell brought something to light that I think everybody 
knew about but didn't know quite how to get the spotlight shed 
on it.
    And so we feel that this document we foresee and have heard 
will come to be resolvable through the efforts of your office, 
that of our tribe and the members of which we will have 
meetings with and explain the situation, giving them the 
options that you are presenting here today. We are looking at 
entertaining all avenues of trying to resolve the problems we 
have.
    The BIA and Cobell and Interior and whoever else, Judge 
Lamberth, we know they have good intentions. Everybody has 
there own agenda. We as the Crow Tribe have ours, and we will 
keep your office and the offices of those that we know need to 
be kept in contact, we'll be in contact with them through our 
legal counsel, through the Chairman's office and anybody else 
that might be of service to your office.
    We would appreciate your having come here again, sit down 
with us and talk to us of matters that we find that are very 
important.
    Our members, our individual members would appreciate the 
fact that maybe this extension that you have given to the 
tribes will also be given to them.
    Thank you.
    Mr. Rehberg. Thank you, Kayle.
    [The prepared statement of Mr. Howe on behalf of Carl Venne 
follows:]

      Statement of Mr. Kayle Howe, Executive Aide to Carl Venne, 
                    Chairman, Crow Tribe of Indians

    Good Morning, Congressmen Pombo and Rehberg, my name is Kayle Howe, 
and I am honored to present testimony at this field hearing on behalf 
of the Crow Tribal Chairman, Carl Venne. Chairman Venne has asked me to 
convey his personal appreciation for the opportunity to express the 
views of the government of the Crow Tribe on the critically important 
question of how best to resolve the issues raised in the Cobell 
litigation.
    The Crow Tribal Administration commends the Cobell plaintiffs 
because their litigation has exposed the historical mismanagement of 
the Indian trust and focused the attention of Congress and the 
Department of the Interior on the necessity for trust reform. We 
believe that for both individuals and Tribes, a fair and reasonable 
accounting of trust funds managed by the United States is simple 
justice which must occur. Tribes and their members are unequivocally 
entitled to receive the entire value of their trust assets. The 
question is how best to guarantee that result.
    Nationwide, the Department of the Interior manages almost 11 
million acres of individually owned Indian lands. One-tenth of all 
individually owned Indian land is located solely within the Crow 
Reservation. There are 1.2 million acres of individually owned trust 
land and 7,303 IIM accounts on the Crow Reservation. Each account 
holder is impacted by the Cobell case. The Crow Tribe, which owns 
460,000 acres of trust land, initiated a lawsuit against the United 
States in 2002 for a complete and valid accounting of Tribal trust 
funds. Like the individuals, the Crow Tribe will also be affected by 
the Cobell case because the solutions for solving the individual claims 
will also have application to Tribal claims. Under the structural 
injunction recently imposed by the District Court, the individual 
account holders have but a single option and that is to await the 
outcome of a lengthy and expensive accounting process. Because of the 
unique circumstances pertaining only to the Crow Tribe, we support an 
expansion of the range of reasonable alternatives for Crow Tribal 
account holders.
    In 1948, the Crow Tribal members were made ``competent'' Indians by 
the Congress. This competency designation provided statutory authority 
for Crow Tribal landowners to manage their lands. For lands with five 
or fewer owners, competent Crow Tribal landowners can negotiate their 
own leases without governmental supervision and receive direct payments 
from lessees completely outside of the system of governmental receipts 
and disbursements. The BIA's only role in the case of competent leases 
is to record the document. For fractionated lands with more than five 
owners, managerial responsibility remains in the BIA. Crow Tribal 
landowners have a long history of managing their own lands and continue 
to do so today. Thus, for many competent Crow Tribal members, the 
lengthy and expensive process of recreating their IIM accounts imposed 
by the Cobell structural injunction may be needless use of limited 
resources. The Crow Tribal Administration is concerned that the 
continuation of costly litigation will negatively impact funding for 
the delivery of critical services for both the Tribe and its members. 
Therefore, the Crow Tribe believes that the time has now arrived to 
consider options to resolve the IIM account holders litigation.
    The Crow Tribe believes that any process that allows individual 
Indians the option to elect to resolve their individual trust fund 
claims against the United States is a move to empower the individual 
Indian. For Crow landowners, such individual prerogative is completely 
consistent with their history of decision making as competent Indians. 
We further believe that any voluntary settlement process should extend 
to those tribal members who have had land managed by the BIA. Because 
the Cobell class numbers in the hundreds of thousands, individual class 
members have little or no control over the progress of the litigation. 
A voluntary settlement option broadens their options and provides them 
with that control.
    On behalf of Chairman Venne, thank you for this opportunity to 
present the views of the Crow Tribe and thank you for the very gracious 
courtesy which has been extended by this Committee.
                                 ______
                                 
    Mr. Rehberg. I really appreciate you being here, Jay. I 
understand there is a funeral up in your neck of the woods, and 
it means a lot that you would take time away from that to be 
here today.
    So, I now ask you to give your testimony. Jay St. Goddard 
from the Blackfeet Tribe.

            STATEMENT OF JAY ST. GODDARD, CHAIRMAN, 
                     BLACKFEET INDIAN TRIBE

    Mr. St. Goddard. Thank you, Mr. Rehberg.
    Thank you for this time and this opportunity to speak on 
behalf of the Blackfeet people I represent as Chairman. And 
also here with me is Vice Chairman James Sang In Door.
    I am just here to represent the people that elected me in 
as leader for the Blackfeet Nation up in the mountains border 
and Canadian border up against the beautiful Rocky Mountain 
front.
    I am here on behalf of the Cobell litigation court case 
that is going on. I have only been here a year-and-a-half but 
have been getting strongly involved with the situation.
    As Tribal Chairman of the Blackfeet, we do come 
representing the Cobell case and the individual account 
holders. And I got some writing here that I would just like to 
read out, and then I will kind of make some comments. And I 
just want to thank you for the time.
    The Cobell rider is unjust, unnecessary and illegal.
    No. 1, the practical impact. The Cobell plaintiffs have 
waited over 100 to get a full accounting. Now is not the time 
for delay.
    In fact, many of the Cobell beneficiaries will remain 
income depends on proper accounting or dying. If the Interior 
Department is allow to delay, the older beneficiaries will 
never be repaid.
    No. 2, perception. The Interior Department is dragging its 
feet, yet again delaying a full accounting based on common law 
judiciary obligations.
    After 7 years of litigation and nearly 10 years under 
congressional directive, the Interior Department cannot certify 
an accuracy of a single one of the estimated 500,000 current 
individual Indian trust accounts. It is time for DOI to start 
work now.
    No. 3, likelihood of success. There is no question that the 
Cobell plaintiffs are likely to win. The Interior Department 
knows this, and that is the reason they are asking for a delay. 
It simply is not in keeping with American justice to delay the 
likely meritorious legal claims of hundreds of litigants 
because the losing party does not like the result.
    4, unnecessary. The courts are the proper forum for 
determining whether the Interior Department should be granted a 
stay, not Congress.
    First of all, the Interior Department has a right to ask 
for a stay, both at the District Court and Appellate Court 
level. They do not so yet, but still can. It is not Congress --
Congress' place to do the Interior's work for them.
    Second, there are complex legal and historical issues 
regarding methodology of accounting and fixing the system that 
court experts are in a much better position than Congress to 
make a fair decision.
    5, sign our report. Help to end the Cobell v. Norton 
litigation. Expose the inadequacies of the Interior Department 
that led to the 1994 Trust Reform Act.
    Now that the Cobell plaintiffs are on the verge of seeing a 
historical injustice righted, Congress should not undermine 
Congressmen. Sign ours legacy.
    6, if Congress can overturn the District Court's ruling 
now, what is to stop them from doing so in the future? In fact, 
why not try to overturn the court's ruling anytime the Indians 
win?
    And finally, legality. Permanently preventing the Cobell 
plaintiffs from receiving their right to a historical 
accounting would constitute a taking of property without due 
process violation and would be fully compensable.
    Rogan v. Zimmerman Brush Co., 455 U.S. 422, 428-29 in 1982. 
Elaine v. Central Hannover Bank & Trust Company 339 U.S. 306 in 
1950.
    While the rider at the stake is not permanent, it raises 
serious question of fairness and could ultimately lead to a 
takings claim.
    With that, that was from a --just a note from the 
Blackfeet.
    Also, really do appreciate this time you are taking to hear 
tribal leaders here in Montana and the nice wide-open state we 
live in; the beauty of it.
    And I know you are here, and you read the letter from 
Baucus. And as Tribal leaders and government-to-government 
relations, this is big, as Mr. Matt stated. This is the next 
biggest thing in Congress, in Washington, D.C., right now 
besides the Iraq war. That is how big this thing is.
    We are very concerned, and I am here representing our 
individual trust account holders. And as leader of the 
Blackfeet Nation, I need to be on top of this. And I do feel 
the courts need to decide, and Congress needs to allow that. We 
don't need the separation of powers there. It is moving 
forward, and I believe it is on a winning track.
    The people I am speaking for, the people back home, the 
elders, the people that really don't understand what is going 
on and how big this is to Indian country. And as Tribal 
leaders, here, I believe we need to come to the table, such as 
this hearing, more often with Baucus sitting across from us as 
well as Mr. Burns.
    And I just thank you for this time and appreciate you for 
being here, and thank all of the Tribal leaders for attending. 
Thank you.
    Mr. Rehberg. Thank you very much.
    Mr. Rehberg. Geri Small, representing the Cheyenne Tribe. 
Geri, thank you.
    I might point out, you will all remember that I traveled 
out to the seven reservations. It was fascinating for me 
because anticipating or expecting like-minded answers, it is 
almost like representing Montana. I got seven different answers 
when I was traveling around the State of Montana.
    And I don't know if we are receiving seven different 
answers today, but it has been fascinating to me. And when I 
get to the questioning, I am looking forward to getting a 
little more into the meat of things.
    But, Geri, thanks for taking the time and coming up to be 
with us today. I appreciate your hospitality when I was down in 
your neck of the woods, and welcome to Billings.

              STATEMENT OF GERI SMALL, PRESIDENT, 
                    NORTHERN CHEYENNE TRIBE

    Ms. Small. Thank you. Good morning, Congressman Rehberg, 
and tribal leaders that are present here today. I want to thank 
you for inviting me to testify today.
    I am Geri Small, President of the Northern Cheyenne Tribe 
and also Chairman of the Montana/Wyoming Tribal Leaders 
Council.
    On behalf of the Northern Cheyenne Tribe and the Montana/
Wyoming Tribal Leaders Council, I would like to express our 
appreciation to this Committee, and express my appreciation to 
Congressman Pombo for his commitment to the Indian people and 
to upholding the trust and treaty responsibilities of the 
Federal Government.
    Also, I want to take some time and just give a brief 
background of the Northern Cheyenne Tribe. We are located in 
the southeastern part of Montana. We own 98 percent of our 
reservation. We have about 8,200 tribal members and growing.
    I firmly believe that the time has come for Congress to 
establish a fair and equitable process for settling the Cobell 
v. Norton litigation. The Department of Interior has not 
maintained a recordkeeping system that will allow a complete 
historical accounting, and the two parties to the Cobell 
litigation are very far apart in their views as they --or what 
they want to--as to what redress the beneficiaries should 
receive.
    I am very appreciative that the Committee on Resources is 
exploring a legislative solution to settling the Indian trust 
fund lawsuit, as I believe settlement is in everyone's best 
interest. However, I believe developing a settlement process 
may prove to be very time-consuming.
    If a settlement process is going to be developed, I believe 
that Congress should continue to attack the root causes of 
trust mismanagement, including the problem of land title 
fractionation, the absence of standards for trust management, 
the lack of functioning and integrated systems for title, 
leasing and accounting.
    I also ask that Congress immediately halt the proposed 
reorganization of the Bureau of Indian Affairs and the Office 
of Special Trustee, as it is strongly opposed by Indian 
country.
    I note that my fellow tribal member, Senator Ben Nighthorse 
Campbell, just recently introduced Senate bill 1770 in an 
effort to establish a voluntary alternative claims resolution 
process to reach a settlement of the Cobell lawsuit.
    I will not address the merits of this bill directly because 
I have not had adequate time to study it. My initial 
observations are that the bill needs a lot of work as it does 
not include many concepts that I believe should be implemented 
in any settlement legislation, our legislation enacted by 
Congress, these settlement concepts are set out fully in my 
written testimony.
    You should also know that I am a little uncomfortable 
testifying on a settlement process for a case involving 
individual Indian account holders throughout the United States. 
I am also an IIM account holder, but I am just one. I believe 
there is somewhere in the neighborhood of thousands of IIM 
account holders. The IIM account holders are represented by the 
Native American Rights Fund and its attorneys. I believe that 
these are the individuals with whom Congress should discuss 
settlement of the Cobell claims.
    I recognize that I only have 5 minutes to provide you with 
my oral testimony, so I am going to cut to the chase.
    If you were dealing with me directly as a plaintiff in the 
case, I would ask you to make a settlement offer. The Cobell 
case has been going on for over 8 years now. Judge Lamberth 
recently ordered the Department to conduct a historical 
accounting of the IIM trust accounts.
    It is my understanding that the Department of Interior 
estimates that it will cost the Federal Government $10 billion 
to conduct an historical accounting. I suggest that this $10 
billion would be better spent as an initial payment in settling 
the Cobell lawsuit. At the very least, it is a good starting 
point for settlement negotiations.
    $10 billion may seem like a lot of money, but it pales in 
comparison to the billions of dollars that the United States is 
spending on the Iraq war and the efforts to rebuild Iraq.
    I also note that there are costs associated with developing 
a settlement process. Senate Bill 1770 appropriates $40 million 
through Fiscal Year 2007 for costs associated with settling 
individual claims. These costs could be avoided if the 
government would simply settled the Cobell lawsuit.
    Last, Senators Campbell and Inouye sent letters to tribal 
leaders earlier this year that invited tribes and the Cobell 
plaintiffs to mediate the dispute. Tribal leaders and the 
Cobell plaintiffs were overwhelmingly in favor of developing a 
settlement process that involved mediation.
    Senate bill 1770 does not involve a mediation process. If 
the government insists on pursuing legislation that develops a 
legislative process as opposed to settling the case, I strongly 
urge Congress to include mediation in the process.
    The other thing that I wanted to mention here earlier, I 
also have my written testimony that I have submitted. Like 
other tribal leaders here, I--it was very fast, you calling a 
hearing here today, so I need to get back with my Council. And 
we will probably be making some amendments to my written 
testimony and sending it back in to you.
    I also want to thank you, Congressman Rehberg, for having 
this hearing here today and looking out for the best interest 
of not only the Montana tribes but the Wyoming tribes. I am 
thankful that they are here today as tribal leader because it 
not only concerns Montana; it concerns all tribes in all 
States.
    This concludes my oral testimony, and again, I thank you 
for inviting me to be able to speak here and testify on this 
issue, as it is a big issue in Indian country all over. I thank 
you for that.
    Mr. Rehberg. Thank you, Geri.
    [The prepared statement of Ms. Small follows:]

      Statement of Geri Small, President, Northern Cheyenne Tribe

Introduction
    Congressman Rehberg, thank you for inviting me to testify today. On 
behalf of the Northern Cheyenne Tribe, I would like to express our 
appreciation to this committee for its commitment to Indian people and 
to upholding the trust and treaty responsibilities of the federal 
government.
    I firmly believe that the time has come for Congress to establish a 
fair and equitable process for settling the Cobell v. Norton 
litigation. The DOI has not maintained a recordkeeping system that will 
allow a complete historical accounting, and the two parties to the 
Cobell litigation are very far apart in their views as to what redress 
the beneficiaries should receive. I am very appreciative that the 
Committee on Resources is exploring a legislative solution to settling 
the ``Indian Trust Fund Lawsuit'' as I believe settlement is in 
everyone's best interest. However, I believe developing a settlement 
process may prove to be very time consuming. As the settlement process 
develops, I believe that Congress should continue to attack the root 
causes of trust mismanagement, including the problem of land title 
fractionation, the absence of standards for trust management, and the 
lack of functioning and integrated systems for title, leasing and 
accounting. I also ask that Congress immediately halt the proposed 
reorganization of the Bureau of Indian Affairs and the Office of 
Special Trustee, as it is strongly opposed by Indian country.
    I note that my fellow Tribal member, Senator Ben Nighthorse 
Campbell, just recently introduced S. 1770 in an effort to establish a 
voluntary alternative claims resolution process to reach a settlement 
of the Cobell lawsuit. I will not address the merits of this bill 
directly because I have not had adequate time to study it. My initial 
observations are that this bill needs a lot of work. My testimony today 
provides the Committee with concepts that I believe should be 
implemented in any settlement legislation enacted by Congress.

Objectives of a Settlement Process
    Tribal leaders have consistently supported the goals of the Cobell 
plaintiffs in seeking to correct the trust funds accounting fiasco that 
has lingered for too long at the Department. At the same time, tribes 
are concerned about the impacts the litigation may have on Tribal 
Government. Any solution, legislative or judicial, should not interfere 
with Tribes' right to govern trust resources.
    From the beginning, the DOI has operated with the primary interest 
of protecting itself from liability rather than complying with its 
statutory duties. See, e.g., Cobell v. Norton, 226 F. Supp. 2d at 11. 
This has had a direct impact on the BIA's ability and willingness to 
provide the services that are so vital to tribes and individuals. 
Significant financial and human resources have been diverted by DOI in 
response to the litigation. The BIA has become extraordinarily risk 
averse and slow to implement the policies, procedures and systems to 
improve its performance of its trust responsibility to Indian tribes 
and individual Indians. Perhaps most significantly, the contentiousness 
of the litigation is creating an atmosphere that impedes the ability of 
tribes and the DOI to work together in a government-to-government 
relationship to promote tribal self-determination and address other 
pressing needs confronting Indian country.
    Continued litigation will cost many more millions of dollars and 
take many more years to reach completion. It is my understanding that 
the Department of Interior has estimated that it will cost the Unites 
States $10 billion to comply with Judge Lambreth's Order for an 
accounting of IIM trust accounts. I believe that this money would be 
better spent if it were given directly to the Plaintiffs. Furthermore, 
I believe that the litigation has caused Interior to become very 
contentious with Tribes and that the litigation has impeding the 
ability of the BIA and the DOI to carry out their trust 
responsibilities to Tribes. For these reasons, I believe that it is in 
the best interests of tribes and individual account holders that tribal 
leaders participate in the resolution of trust-related claims and the 
development of a workable and effective system for management of trust 
assets in the future.

Guiding Principles--for a Settlement Process
    I would like to suggest a number of principles that I believe 
should be taken into account in developing any settlement process:
    1) Involve all necessary parties in a convening this fall to scope 
and frame the settlement process. I believe a professional mediator 
should be employed to facilitate discussions involving the parties to 
Cobell v. Norton, Tribal leadership, and senior members of Congress. 
Timely and good faith consultation with the elected tribal leadership 
is essential in the settlement process. Tribes have a number of very 
important interests in the outcome:
        a.  Tribal lands are often co-owned or co-managed with 
        individuals' lands.
        b.  Future delivery of all trust services is a key issue in the 
        case.
        c.  Tribal regulatory authority, self-determination programs, 
        and natural resource management could be affected.
        d.  The federal budget for tribal programs could be affected.
        e.  The settlement for individual account holders could set 
        precedent for tribal claims.
    I believe that the House Resources Committee and the Senate 
Committee on Indian Affairs should forge an alliance to work on this 
issue and participate in meetings to keep Congress informed of progress 
and keep the pressure on for settlement.
    Formal consultations should be held to enable those not directly 
involved in the discussions to have an opportunity to comment before 
the settlement process is finalized.
    2) Take the time to do it right. Defining a settlement process is 
complicated. One ``trust reform'' quick fix after another has been 
proposed, implemented, and eventually fallen to the wayside. We have 
wasted over 20 years looking for a quick fix. Congress should not 
impose a process that may not be well received and will spell failure 
for the development of a settlement process.
    3) Provide for judicial review and fairness--Settlements should be 
judicially approved pursuant to the Federal Rules of Civil Procedure. 
The settlement process must ensure that Indian people are situated in 
an equitable position to evaluate the fairness of any settlement offer. 
The settlement process should require full disclosure of all material 
facts--the government has the burden of providing beneficiaries with 
all records from government agencies and contractors pertaining to 
their trust claims. Many individuals do not have access to legal 
counsel to review settlement documents; therefore review by the courts 
is necessary to avoid any unfair settlements. The settlement of claims 
should be final absent fraud or failure to disclose material facts.
    4) Establish a process that will keep the pressure on for 
settlement. The parties to the litigation have tried several times to 
resolve the case but have been unsuccessful in reaching agreement. I 
believe that this has been due in large part to a failure to establish 
a structured process to support settlement discussions. Firm time 
schedules should be established with periodic reporting and incentives 
for reaching a settlement. While settlement deliberations are in 
process, I believe the litigation should continue until the historical 
accounting has been settled, and the Department has successfully 
implemented the necessary reforms to ensure sound trust management in 
the future.
    5) Ensure that the settlement also fixes trust systems for the 
future. The historical record has shown that DOI will only move forward 
in improving Indian trust systems if there is exterior pressure from 
the courts or from Congress. There are two critical issues here that 
need to be addressed: (a) the establishment of account balances 
(historical accounting); and (b) the functionality of accounting 
systems. It would be disastrous to create a settlement that would 
resolve the past liability and then allow the DOI to relapse into 
ignoring its responsibilities for Indian trust management and 
accounting.
    6) An independent body should play a significant role in the 
settlement process. The parties to the litigation have a significant 
financial stake in the outcome. The tribes and the IIM account holders 
will distrust any process where the Secretary of Interior is in control 
of all aspects of the settlement. To ensure fairness and transparency 
and ensure that the process moves forward, an independent body should 
play a significant role in scoping, fact finding, framing, and 
management of deliberative processes. Consideration should also be 
given to: (a) having the Independent Body perform structured 
evaluations of proposed settlement processes using a consistent set of 
components and criteria--these evaluations could be used to provide the 
informational basis for tribal consultation; (b) authorizing the 
Independent Body to provide recommendations to Congress for a 
settlement process in the event that parties are unable to reach 
agreement within a pre-determined time frame.
    7) One size will not fit all. There is a great deal of diversity 
among account holders. Some have large stakes in very valuable natural 
resources, such as oil, gas, or timber. Others have only a small 
fractionated interest that is worth less than a dollar. Any settlement 
process must be able to deal with different classes of accounts and 
interests.
    8) Account holders should have the opportunity to negotiate and 
make a choice. You cannot force a ``settlement.'' In today's world, the 
hallmark of fairness is the ability to negotiate an arms length 
agreement based on a reasonable knowledge and understanding of the 
underlying facts and circumstances. Indian account holders must also 
have this ability. The settlement process should, however, contain 
incentives that would encourage participation.
    9) Move quickly to bring relief to elder account holders. Many of 
our elders have suffered extreme economic deprivation throughout most 
of their lifetimes. They should have an opportunity to improve their 
financial conditions without delay.

While the Settlement Process Develops,
Congress Should Attack the Causes of Trust Mismanagement
    I believe that it is imperative that we continue our efforts to 
legislate solution concerning land consolidation and fractionation. 
This is the root cause of the problem. But there are also several other 
issues that we believe Congress should take up at the same time.
    Land Consolidation--Maintaining accurate ownership information is 
made exceedingly difficult by the ever-expanding fractionated ownership 
of lands divided and redivided among heirs. Today, there are 
approximately four million owner interests in the 10 million acres of 
individually owned trust lands, and these four million interests could 
expand to 11 million interests by 2030. Moreover, there are an 
estimated 1.4 million fractional interests of 2 percent or less 
involving 58,000 tracks of individually owned trust and restricted 
lands. There are now single pieces of property with ownership interests 
that are less than 0.000002 percent of the whole interest.
    Addressing fractionation is critical to improving the management of 
trust assets and reducing the administrative costs of maintaining IIM 
accounts. Fractionation promises to greatly exacerbate problems that 
currently plague the DOI's efforts to fulfill its trust 
responsibilities, diminish the ability to productively use and manage 
trust resources, and threaten the capacity of tribes to provide secure 
political and economic homelands for their members. If allowed to 
continue unabated, fractionation will eventually overwhelm systems for 
trust administration and exact enormous costs for both the 
Administration and tribal communities.
    Reduction of fractional interests will increase the likelihood of 
more productive economic use of the land, reduce recordkeeping and 
large numbers of small dollar financial transactions, and decrease the 
number of interests subject to probate. Management of this huge number 
of small ownership interests has created an enormous workload problem 
at the BIA. In addition to the development of amendments to the Indian 
Land Consolidation Act (S. 550), Congress needs to put funding directly 
on the problem. We believe that an investment in land consolidation 
will pay much bigger dividends than most any other ``fix'' to the trust 
system.
    Accountability and Standards--It is well known that DOI has 
mismanaged the Indian trust for decades. The real question for Congress 
is why decades of reform efforts have produced so little change in 
DOI's willingness to take corrective actions, to reconcile accounts, 
and to put adequate accounting and auditing procedures and policies in 
place.
    The real answer to this is that the DOI and the Department of 
Justice have always viewed their primary role as ensuring that the U.S. 
is not held liable for its failure to properly administer trust assets. 
For this reason, they have never been willing to put standards into 
regulations that would govern the management of Indian trust assets, 
and the lack of standards has consistently undermined any effort to 
take corrective action on trust reform. What is needed is a clear 
signal from Congress to create a new culture of transparency and 
accountability for Indian trust management. Once the DOI understands 
that mismanagement will no longer be tolerated, the system will change 
and true reform will begin. In effect, the DOI is acting as a bank for 
Indian trust funds--and just like every other bank in the U.S., the DOI 
must be subject to standards and accountability.
    I believe that it is critical for Congress to substantively address 
the underlying issues of transparency and accountability in fixing the 
trust system. I would greatly encourage the Committee to take up trust 
reform legislation that would hold the DOI to the ordinary standards of 
a trustee, and we would be pleased to work with you in developing that 
legislation.
    Core Business Systems--Indian trust resource and trust fund 
administration requires accountability in three core systems that 
comprise the trust business cycle: 1) Title; 2) Leases/Sales; and 3) 
Accounting. I believe that Congress should focus its oversight efforts 
on these core systems to ensure that reform efforts meet requirements 
for fiduciary trust fund administration. Once these processes have been 
developed, an organizational structure can be developed to ensure their 
proper implementation. Correcting the DOI's performance in these core 
functions will also require the DOI to employ sufficient personnel, 
provide staff with proper training, and support their activities with 
adequate funds.
          Title--Currently, the BIA is using ten different title 
        systems in the various Land Title Record Offices around the 
        country, both manual and electronic. These systems contain 
        overlapping and inconsistent information. The inaccuracies 
        result in incorrect distribution of proceeds from trust 
        resources, questions regarding the validity of trust resource 
        transactions, and the necessity to repeatedly perform 
        administrative procedures such as probate. Consequently, a 
        large backlog of corrections has developed in many of the title 
        offices, and this has compounded the delays in probate, 
        leasing, mortgages, and other trust transactions that rely on 
        title and ownership information. In turn, each of these delays 
        compounds the errors in the distribution of trust funds. 
        Cleaning up the ownership information and implementing an 
        effective title system that is integrated with the leasing and 
        accounting systems is a primary need for the Indian trust 
        system.
          Leasing--Most Indian trust transactions take the form of a 
        lease of the surface or subsurface of an allotment, permits to 
        allow the lessee to conduct certain activities in return for a 
        fee, or a contract for the sale of natural resources such as 
        timber or oil. Although leasing records are vital to ensure 
        accurate collection of rents or royalties, there are no 
        consistent procedures or fully integrated systems for capturing 
        this information or for accurately identifying an inventory of 
        trust assets. Currently, BIA has no standard accounts 
        receivable system and many offices have no systems to monitor 
        or enforce compliance, or to verify and reconcile the quantity 
        and value of natural resources extracted with payments 
        received. The accounting system most often begins with the 
        receipt of a check that is assumed to be accurate and timely. 
        Implementing an effective lease recording system that is 
        integrated with the title and accounting systems is a primary 
        need for the Indian trust system.
          Accounting--The DOI needs to develop accounting systems that 
        will integrate and verify information from one function into 
        another (from title to leasing to accounting). The DOI should 
        also set out what oversight capabilities are planned into the 
        system (verification and audit) as well as a plan for document 
        retention and ease of access to facilitate audit and internal 
        verification procedures. Furthermore, the DOI system needs a 
        built-in crosscheck between BIA entries to its control account 
        and Treasury's entries to its control account. This system 
        should automatically produce a daily exception list that would 
        be examined and remedied in a timely manner.

Opposition to Current BIA Reorganization Efforts
    The Northern Cheyenne Tribe and the Rocky Mountain Region Tribes 
are strongly opposed to the current trust reform reorganization effort 
that the DOI is engaged in, and to the dramatic shifts in BIA funding 
that are proposed in the FY'04 budget. We would like the assistance of 
the Committee in stopping this process.
    Tribal leaders understand better than anyone that the Bureau of 
Indian Affairs needs to change, that it has significant difficulty in 
fulfilling its responsibilities in management of trust funds, and that 
some of the problems relate to the way that the Bureau is organized. We 
want to see successful change and improvement in the way the BIA does 
business. We are not opposed to reorganization per se; we simply want 
to do it right. We cannot afford to squander the opportunity we have 
before us.
    In our view, effective organizational change to effectuate trust 
reform must contain three essential elements:
    (1)  Systems, Standards and Accountability--a clear definition of 
core business processes accompanied by meaningful standards for 
performance and mechanisms to ensure accountability;
    (2)  Locally Responsive Systems--implementation details that fit 
specific contexts of service delivery at the regional and local levels 
where tribal governments interact with the Department; and
    (3)  Continuing Consultation--an effective and efficient means for 
on-going tribal involvement in establishing the direction, substance, 
and form of organizational structures and processes involving trust 
administration.
    These elements are lacking in the current proposal of the 
Department of Interior (DOI) for reorganizing the BIA.
    It is critical Congress appropriate additional funding from 
Congress to correct the internal problems created through 
administrative mistakes rather than depleting existing, insufficient 
BIA program dollars for these purposes. Increased funding for trust 
reform has the potential to be money well spent--but it is an empty 
promise if it comes at the costs of diminished capacity to deliver 
services to tribal communities, and is implemented without clear 
standards for federal accountability, a plan to put the money at the 
local level where it is most needed, and consultation with the tribes 
and individuals whose accounts are at stake.
    I am extremely concerned that the lack of definition of the 
responsibilities and authorities of new OST offices will cause serious 
conflicts with the functions performed by the BIA Agency 
Superintendents and/or Indian tribes. The authority and role of the 
proposed Trust Officers need much more explanation. Moreover, I believe 
that the funding and staff needs to flow directly to the agency and 
regional levels--not just to new Trust Officers--to address long-
standing personnel shortages needed to fully carry out the trust 
responsibility of the United States. Before DOI begins the process of 
establishing an entire new mini-bureaucracy, the financial and 
management impact of such an action must be thoroughly examined by the 
Congress and by affected tribal governments.
    I believe that any attempt by DOI to implement its proposed 
reorganization without addressing the three essential elements we have 
identified above for trust administration will prove to be ill-advised, 
premature, and ultimately disastrous. We fear that the DOI is on the 
verge of repeating the classic mistake that has ruined the majority of 
its efforts to reform trust administration in the past--a small group 
of executives get together and simply draw up a new organizational 
chart. The preoccupation with moving or creating boxes on a chart is 
the antithesis of how effective organizational change can and should be 
brought about.
    I also firmly believe that this reorganization is putting the cart 
before the horse. Organizational--structures must be aligned with 
specific business processes and they must be designed to function 
within a system where services are provided by the DOI and tribal 
governments. DOI has not yet figured out its new business processes. 
Millions of dollars have been invested in an ``As-Is'' study of trust 
services, and the Department has not completed the critical ``To-Be'' 
phase of reengineering the business processes of trust management. By 
implementing a new organizational plan prematurely, DOI is running a 
great risk of ignoring the findings of its own study and wasting the 
valuable resources that the agency and tribes have already dedicated to 
understanding systemic problems.
    DOI will most likely refer to the so-called ``consultation'' 
sessions that are occurring. I would note the tribal leaders strongly 
object to these so-called ``consultations,'' as the DOI representatives 
inform tribes about how the re-organization is going to proceed and 
they fail to tribal concerns regarding meaningful trust reform.
    Reorganization should only come after the new business processes 
have been identified and remedies devised through a collaborative 
process involving both BIA employees and tribal leadership. We must 
include the input of tribes and BIA employees so that the great numbers 
of people who must implement changes in trust administration understand 
and support necessary reforms. Only then, as a final step, can we 
design an organizational chart to carry out the functions of trust 
management without creating conflicting lines of authority throughout 
Indian country. The history of trust reform is filled with failed 
efforts that did not go to the heart of the problem and do the 
detailed, hard work necessary to fix a large and often dysfunctional 
system.
    At this time, Congress should prevent the DOI from proceeding with 
its proposed reorganization plan and focus instead on funding land 
consolidation that will in time reduce the cost of trust 
administration, and on developing good systems for the core trust 
business processes: land title, leasing and accounting.
    Without adequate land title, leasing and accounting systems, 
reorganization, especially as proposed by DOI, does little to 
effectuate true trust reform and the cost of reform of trust 
administration will continue to escalate.

Conclusion
    On behalf of the Northern Cheyenne Tribe, I would like to thank the 
members of the Committee for all of the hard work that they and their 
staffs have put into the trust reform effort. If we maintain a serious 
level of effort and commitment by Congress, the Administration, and 
Tribal Governments to work collaboratively together to make informed, 
strategic decisions on key policies and priorities, we can provide the 
guidance necessary to bring about true reform in trust administration.
                                 ______
                                 
    Mr. Rehberg. A gentleman I met today for the first time, we 
welcome you to Billings, Montana. Vernon Hill, Chairman of the 
Shoshone Business Council in Wyoming.
    Vernon.

  STATEMENT OF VERNON HILL, CHAIRMAN OF THE EASTERN SHOSHONE 
     BUSINESS COUNCIL OF THE WIND RIVER INDIAN RESERVATION

    Mr. Hill. Good morning, Congressman Rehberg. My name is 
Vernon Hill. I am the Chairman of the Eastern Shoshone Business 
Council of the Wind River Reservation in Wyoming. Thank you for 
inviting me to testify today on this important subject.
    The Wind River Reservation was established by the Treaty of 
July 3, 1868, and is the only Indian Reservation in Wyoming. 
The Wind River Reservation encompasses over 2.2 million acres 
and is occupied and shared by two tribes, the Eastern Shoshone 
and the Northern Arapaho.
    There are nearly 3,500 enrolled Eastern Shoshone members 
and over 7,300 Northern Arapahoe members. The total Reservation 
population consists of 23,250 people residing on both trust 
lands and nontrust lands.
    There is a long history to the current trust fund situation 
stemming back to the expansion of America to the West. The 
Allotment Act and Policy was implemented on the Wind River 
Reservation in the 1890s. As a result, the Wind River 
Reservation started out as a 40-million-plus acre reservation 
and was reduced to 2.2 million acres. The rest was sold as 
surplus.
    Under the same policy, the reservation lands were allotted 
to individual Indians, and the United States undertook a solemn 
trust duty to protect the land and resources of the allottees 
and the tribe. One aspect of that trust duty is the requirement 
that the United States account for the revenues that are 
generated by those lands and resources.
    For American Indians, the system of allotments failed as 
non-Indian farmers and ranchers were successful in purchasing 
much of the individually allotted lands, thereby diminishing 
the reservation trust land base. As a result, many of our 
people were left landless. On the Wind River Reservation, there 
is approximately 2.2 million acres of tribally owned lands and 
over 100,000 acres of allotted lands affecting our members.
    Many of our tribal members are individual Indian Monies 
(IIM) account holders which are a part of the Cobell v. Norton 
Case.
    I am submitting this testimony on behalf of the tribe to 
urge a fair and equitable resolution of this lawsuit, both for 
the benefit of our tribal members who are IIM account holders 
and for the tribes that have been affected by this case.
    First, I would like to acknowledge Elouise Cobell, the lead 
named plaintiff in the lawsuit. The Cobell lawsuit has brought 
the Federal Government's historic mismanagement of the Indian 
trust to the forefront and has caused all three branches of the 
U.S. Government to focus on fixing these problems.
    Yet, after 7 years since the filing of the lawsuit, three 
Cabinet-level Secretaries and two Assistant Secretaries have 
been held in contempt of court for litigation misconduct, and 
Congress has appropriated hundreds of millions of dollars to 
correct trust fund mismanagement. Unfortunately, this funding 
has not resolved this case, nor has it improved the delivery of 
services to tribal members. None of this money has reached the 
hands of IIM or tribal account holders.
    Officials in the Interior Department currently estimated 
that it will cost $6 to $12 billion to conduct a historic 
accounting of the IIM trust as required by the court in the 
Cobell lawsuit.
    Even if Congress appropriated the full amount of funding 
for this accounting, at the end of the day, none of this money 
will have reached the IIM account holders. All of this funding 
will only benefit the large accounting firms, like the former 
Arthur Andersen firm, which already collected close to $50 
million for a mere sampling of the accounting problem.
    In the meantime, the Federal budget and policy for Indian 
Affairs is suffering in the name of trust reform. In the recent 
years, the Interior Department's annual budget has focused on 
its ability to conform to the Cobell court's directive. As a 
result, funding for the tribal services infrastructure and 
economic development have fallen to the bottom of the priority 
list. In Fiscal Year 2004, funding for Tribal Priority 
Allocation is slated for an increase of a mere two-thirds of 
less than 1 percent. Thus, basic funding for tribal governments 
is actually being reduced when inflation is being considered 
because trust reform dollars are taken from current 
appropriations.
    Moreover, the Interior Department has developed trust 
reform policy that will have direct adverse impact on tribes. 
This year the Interior Department decided to reorganize the BIA 
by stripping administrative, human resources, information 
technology, self-determination, contracting and other functions 
and responsibilities out of the BIA. The funding and resources 
supporting these functions will also leave the BIA. In 
addition, the reorganization calls for the creation of 
additional layers of bureaucracy on higher departmental levels 
which will hamper local decisionmaking and efficient program 
operations. What is left will be a totally ineffective agency 
that will have very little ability to deliver services to 
tribes. And, there will be very little left for tribal self-
determination and compacting.
    The Interior Department's current reorganization is an 
effort to consolidate functions and responsibilities in order 
to free up additional funding for trust reform. Moreover, the 
current status of the litigation shows that the United States 
is not even close to resolving the issues associated with 
mismanagement of the Indian trust.
    The Cobell plaintiffs report that the Interior Department 
is unwilling to engage in good-faith mediation. The Interior 
Department claims that the plaintiffs are pursuing a settlement 
for an unreasonable and outrageous sum of money-making 
mediation or settlement impossible.
    Given these circumstances, Congress must step up and 
establish a settlement process that is fair and equitable. 
Therefore, we support the following base line components for a 
legislative solution to the current Indian trust lawsuit:
    No. 1. The process should be voluntary in nature.
    No. 2. Congress must authorize access to and use of the 
Judgment Fund for settlement of claims, such as Section 6 in S. 
1770. The United States must pay for a past and ongoing 
mismanagement of the IIM Trust. As such, this means that the 
United States must no longer dip into current appropriations 
dedicated to Indian affairs in the Interior Department's annual 
budget. Our people and our program should no longer suffer in 
the name of trust reform.
    No. 3. Congress should further authorize use of the 
Judgment Fund to pay for Trust Accounting reforms necessary to 
remedy historical wrongs. This is necessary, otherwise current 
Indian programs will continue to be jeopardized and again, that 
just compounds the wrong to American Indian Tribes.
    No. 4. Because Indian Tribes have claims for breach of 
trust for failure to account for funds in tribal trust 
accounts, Congress should develop an IIM trust accounting 
settlement process that takes into consideration tribal input. 
For example the Inter-Tribal Monitoring Association, which the 
Wind River Tribes belong to, has been having discussions with 
the Interior Department for over a year on developing a 
settlement process for settlement of tribal claims. Congress 
should keep in mind the specific tribal claims and ongoing 
settlement discussions and work with the tribes in resolving 
these issues.
    No. 5. There should be appropriate avenues for appeal to 
the Federal courts. The checks and balances inherent in the 
U.S. Government underscores the need to provide a strong basis 
for both the Congress and courts to check and balance the 
Interior Department's implementation of a congressional approve 
settlement process.
    No. 6. Congress must reject appropriations riders developed 
without consultation and dialog with Tribes and IIM account 
holders as a way to resolve issues related to the lawsuit.
    In closing, Congress should enact a specific framework for 
a legislative solution, which includes access to the Judgment 
Fund for both accounting reform and damages for IIM and tribal 
account holders.
    We commend Chairman Pombo, Congressman Rehberg and the 
Resources Committee for holding these hearing. Thank you for 
the opportunity to testify on these critically important 
matters.
    [The prepared statement of Mr. Hill follows:]

 Statement of Vernon Hill, Chairman, Eastern Shoshone Business Council 
                  of the Wind River Indian Reservation

    Good morning Mr. Chairman and Congressman Rehberg. My name is 
Vernon Hill. I am Chairman of the Eastern Shoshone Business Council of 
the Wind River Reservation in Wyoming. Thank you for inviting me to 
testify today on this important subject.
    The Wind River Reservation was established by the Treaty of July 3, 
1868, and is the only Indian Reservation in Wyoming. The Wind River 
Reservation encompasses over 2.2 million acres and is occupied and 
shared by two Tribes, the Eastern Shoshone and the Northern Arapaho.
    There are nearly 3,500 enrolled Eastern Shoshone members and over 
7,300 Northern Arapaho members. The total Reservation population 
consists of 23,250 people residing on both trust lands and non-trust 
lands.
    There is a long history to the current trust fund situation 
stemming back to the expansion of America to the West. The Allotment 
Act and Policy was implemented on the Wind River Reservation in the 
1890's. As a result, the Wind River Reservation, which started out as a 
40+ million acre reservation, was reduced to 2.2 million acres. The 
rest was sold as surplus. Under the same policy, Reservation lands were 
allotted to individual Indians, and the United States undertook a 
solemn trust duty to protect the land and resources of the allottees 
and the tribe. One aspect of that trust duty is the requirement that 
the United States account for the revenues that are generated by those 
lands and resources.
    For American Indians, the system of allotments failed as non-Indian 
farmers and ranchers were successful in purchasing much of the 
individually allotted lands thereby diminishing the Reservation trust 
land base. As a result, many of our people were left landless. On the 
Wind River Reservation, there is approximately 2.2 million acres of 
tribally owned lands and over 100,000 acres of allotted lands affecting 
our members.
    Many of our tribal members are individual Indian monies (IIM) 
account holders which are a part of the Cobell v. Norton class action 
lawsuit. I am submitting this testimony on behalf of the Tribe to urge 
a fair and equitable resolution of this lawsuit both for the benefit of 
our tribal members who are IIM account holders and for the Tribes that 
have been affected by this case.
    First, I would like to acknowledge Elouise Cobell, the lead named 
plaintiff in the lawsuit. The Cobell lawsuit has brought the Federal 
Government's historic mismanagement of the Indian trust to the 
forefront and has caused all three branches of the United States 
government to focus on fixing these problems.
    Yet, after seven years since the filing of the lawsuit, three 
cabinet level Secretaries and two Assistant Secretaries have been held 
in contempt of court for litigation misconduct and Congress has 
appropriated hundreds of millions of dollars to correct trust fund 
mismanagement. Unfortunately, this funding has not resolved this case 
nor has it improved the delivery of services to tribal members. None of 
this money has reached the hands of IIM or tribal account holders.
    Officials in the Interior Department currently estimated that it 
will cost six to twelve billion dollars to conduct an historical 
accounting of the IIM trust as required by the court in the Cobell 
lawsuit. Even if Congress appropriated the full amount of funding for 
this accounting, at the end of the day, none of this money will have 
reached the IIM account holders. All of this funding will only benefit 
the large accounting firms, like the former Arthur Andersen firm--which 
already collected close to $50 million for a mere sampling of the 
accounting problem.
    In the meantime, the federal budget and policy for Indian Affairs 
are suffering in the name of trust reform. In the recent years, the 
Interior Department's annual budget has focused on its ability to 
conform to the Cobell court's directive. As a result, funding for 
tribal services, infrastructure, and economic development have fallen 
to the bottom of the priority list. In FY 2004, funding for Tribal 
Priority Allocation funding is slated for an increase of a mere two-
thirds or less than one percent. Thus, basic funding for Tribal 
Governments is actually being reduced when inflation is being 
considered because trust reform dollars are taken from current 
appropriations.
    Moreover, the Interior Department has developed trust reform policy 
that will have direct adverse impacts on Tribes. This year the Interior 
Department decided to ``reorganize'' the BIA by stripping 
administrative, human resources, information technology, self-
determination contracting, and other functions and responsibilities out 
of the BIA. The funding and resources supporting these functions will 
also leave the BIA. In addition, the reorganization calls for the 
creation of additional layers of bureaucracy at higher departmental 
levels which will hamper local decision-making and efficient program 
operations. What is left will be a totally ineffective agency that will 
have very little ability to deliver services to Tribes. And, there will 
be very little left for Tribal self-determination contracting and 
compacting.
    The Interior Department's current reorganization is an effort to 
``consolidate'' functions and responsibilities in order to free up 
additional funding for ``trust reform.'' Moreover, the current status 
of the litigation shows that the United States government is not even 
close to resolving the issues associated with mismanagement of the 
Indian trust.
    The Cobell plaintiffs report that the Interior Department is 
unwilling to engage in good-faith mediation. The Interior Department 
claims that that the plaintiffs are pursuing a settlement for an 
unreasonable and outrageous sum of money-making mediation or settlement 
impossible.
    Given these circumstances, Congress must step up and establish a 
settlement process that is fair and equitable. Therefore we support the 
following baseline components for a legislative solution to the current 
Indian trust lawsuit:
    1.  The process should be voluntary in nature.
    2.  Congress must authorize access to and use of the Judgment Fund 
for settlement of claims (such as Section 6 in S. 1770). The United 
States must pay for past and ongoing mismanagement of the IIM Trust As 
such, this means that the United States must no longer dip into current 
appropriations dedicated to Indian affairs in the Interior Department's 
annual budget. Our people and our programs should no longer suffer in 
the name of ``trust reform.''
    3.  Congress should further authorize use of the Judgment Fund to 
pay for trust accounting reforms necessary to remedy historical wrongs. 
This is necessary, otherwise, current Indian programs will continue to 
be jeopardized and again, that just compounds the wrong to American 
Indians and Indian Tribes.
    4.  Because Indian Tribes have claims for breach of trust for 
failure to account for funds in tribal trust accounts, Congress should 
develop an IIM trust accounting settlement process that takes into 
consideration Tribal input. For example, the InterTribal Monitoring 
Association, which the Wind River Tribes belong to, has been in 
discussions with the Interior Department for over a year on developing 
a settlement process for settlement of tribal claims. Congress should 
keep in mind the specific Tribal claims and ongoing settlement 
discussions, and work with the Tribes on resolving these issues.
    5.  There should be appropriate avenues for appeal to the Federal 
courts. The checks and balances inherent in the United States 
Government underscores the need to provide a strong basis for both the 
Congress and Courts to check and balance the Interior Department's 
implementation of a Congressional approved settlement process.
    6.  Congress must reject appropriations riders developed without 
consultation and dialogue with Tribes and IIM account holders as a way 
to resolve issues related to the lawsuit.
    In closing, Congress should enact a specific framework for a 
legislative solution, which includes access to the Judgment Fund for 
both accounting reform and damages for IIM and tribal account holders. 
We commend Chairman Pombo, Congressman Rehberg and the Resources 
Committee for holding these hearings.
    Thank you again for the opportunity to testify on these critically 
important matters.
                                 ______
                                 
    Mr. Rehberg. Thank you. And I really do appreciate you all 
being here.
    I know this is one of these issues that you all have 
inherited. None of us were around at the beginning, but we 
would like to be around at the end of this process.
    So let me begin by just asking you, if you can answer the 
question, How many--and I know, Fred, your situation perhaps is 
different because you have a management arrangement contract, 
and so do you, Mr. Howe, but--I am sorry, Alvin --but how many 
individual account tribal members do you have in each of your 
tribes? Do you know that?
    Mr. Matt. I don't have those numbers who is underneath. We 
manage our own IIM accounts on our reservation. As--like Alvin 
had mentioned, most of the functions at the BIA used to provide 
us on the reservation. We do it ourselves.
    Mr. Rehberg. But you don't know how many individuals.
    Because one of the numbers we hear continually is, you 
know, the tribes mentioned nationwide, there could be as many 
as 500,000. The Department of Interior says no, it is more like 
250, 280, 290, less than 300.
    I am trying to put it into some kind of numerical 
perspective in Montana. What kind of problem are we talking 
about? I know asking you first gives these guys a whole lot 
more time to try and figure out what it is, but you don't 
have--
    Mr. Matt. I don't know a specific number.
    Mr. Rehberg. OK.
    Mr. Windy Boy. I can say with Rocky Boy, as an example, I 
am an IIM account holder. So is my brothers, and there is nine, 
ten of us. And the list goes on.
    In addition to that, I have also got enrolled members of my 
tribe that are IIM account holders on the Blackfeet, Salish-
Kootenai and Crow, and other tribes, and whether or not Cobell 
is representing them, they are constituents and representatives 
of my tribe and feel that --
    Mr. Rehberg. So do you know how many that would be, just 
perhaps living on your reservation?
    Mr. Windy Boy. Specifically?
    Mr. Rehberg. Or, enrolled in your tribe that would be IIM?
    Mr. Windy Boy. Specifically, not a number offhand.
    Mr. Rehberg. OK.
    Kayle?
    Mr. Howe. Yeah, we have 7,303 account holders on our Crow 
Reservation, and I am one of them. And I have established that 
since 1962 the account, and so have other members prior to 
that, I believe. But we do have in excess of 11,000 in our 
enrollment in the Crow Tribe.
    Mr. Rehberg. OK.
    Mr. Howe. And so we would feel that it would be important 
if we could have certain types of hearing of this nature 
brought to the Crow Reservation, where the account holders 
themselves can hear the intentions of Congress and how they are 
trying to resolve the problems.
    Mr. Rehberg. You bet.
    Jay, do you--
    Mr. Matt. Chairman Rehberg, I was just trying to think, out 
of 6,000 members of our tribe, half of them live off the 
reservation. But, I was trying to think of what I --I heard the 
number on our reservation the other day, and there is somewhere 
in the neighborhood of 1500 to 2000 account holders.
    Mr. Rehberg. OK.
    Jay?
    Mr. St. Goddard. Up there on Blackfeet, there is probably 
9,800, and as Mr. Windy Boy stated, on the reservation, on 
Rocky Boy and other reservations that this occurs to families 
owning other shares on different reservations, being married 
into different tribes or whatever. I don't know an exact number 
there, but at home, there it is 9,800, close to that.
    Mr. Rehberg. OK.
    Geri?
    Ms. Small. Well, you know, I just wanted to mention, you 
know, you said 500,000, and that is the last I heard too, 
nationwide.
    But on Northern Cheyenne, we got about 8,200 tribal 
members, and we have probably about three-quarters of those 
that are IIM account holders.
    Mr. Rehberg. OK.
    Vernon?
    Mr. Hill. I don't have an exact figure on how many account 
holders there are, but I would say the majority of them are. I 
would say enrolled members some way or another are account 
holders because of the income they receive off of oil/gas 
royalties.
    It kind of depends on the situation, though, involving 
accounts. I would say a majority of the adults, the children or 
all tribal members receive income of some type.
    And you have the others there that have leased land out, 
and, you know, you have fractionated interest, and so that is a 
large number, and I couldn't give it, an exact figure.
    Mr. Rehberg. OK. All right.
    I just want all of you to know that there is really no 
right or wrong answer to anything. There is nothing that we are 
going to hold you all to. We recognize the fact that the 
hearing came up at a rather late date. Not a lot of preparation 
could be put into it.
    Sometimes that is better because then you just throw out 
ideas. And this is the period of time that we are throwing out 
ideas.
    I don't know which direction we are going to take, so some 
of the things I say may not be either correct or end up in the 
legislation. We have to work within the committee structure 
itself.
    Mr. Windy Boy. Just one statement. As far as being 
progressive, I would like to remind you of a demonstration 
project that is currently being proposed in collaboration with 
four tribes--the Chippewa and Cree Tribe, the Salish-Kootenai, 
Hupa Tribe in California, and the Salt River Pima-Maricopa in 
Arizona in creating a demonstration project, a 1-year 
demonstration project that looks at the service that we provide 
and having the reform not negatively involve--interfere with 
the way that we are doing business.
    And I would also want to commend Secretary Griles and his 
subordinate Dave Burnhardt in working with us. They certainly 
have been taking a lead in collaborating with us on government-
to-government relationship.
    Mr. Rehberg. OK.
    Kayle?
    Mr. Howe. Yeah, I would like to make note to the fact that 
the 7,303 is the number that we had, but there is pending 
probates that would probably increase the numbers.
    Mr. Rehberg. OK, let me ask you all then a ``what if'' 
question.
    What if we have a legislative solution that allows an 
opportunity for the individual tribes to opt in or opt out. 
There is nothing binding on you. If you want to continue on 
with the class action lawsuit, we will call it the Cobell case 
if that is the easiest way to refer to it, you have that 
ability. Would you be willing to endorse or support legislation 
that says, Look, it is not good for our tribe to accept this, 
so we are out, but frankly if the Crows, or if the Blackfeet 
want to settle, that is their business? Is that something that 
you would be amenable to?
    I know your current situation is that you are currently 
contracted, so you are kind of opting out already.
    Mr. Howe. Right.
    Mr. Rehberg. But is that something that you could support?
    Mr. Matt. Yeah, I think our Council would support that 
idea.
    Mr. Windy Boy. Yeah, ditto.
    Guys like me that have like 3 cents and get a statement 
every so often, that is kind of ludicrous to know that there is 
administration spending that much money.
    The litigation as far as the Congress involvement certainly 
is important, and litigation appeals would go on forever.
    Mr. Rehberg. Kayle?
    Mr. Howe. Yeah, Congressman, I would like to have my 
attorney address that.
    Mr. Rehberg. Would you please state your name and position.
    Mr. Yellowtail. Yes. Good morning, Congressman. For the 
record, my name is James Yellowtail, and I am legal counsel for 
the Crow Tribe. I am part of a legal team for the Crow Tribe.
    Sir, as I understand your question, the question would be, 
would the Crow Tribe support some kind of voluntary settlement 
option for individual tribal members who are affected by the 
Cobell Lawsuit?
    The answer is, certainly we do.
    I also understood a component of your question that would 
refer to tribal claims for historical accountings that affect 
purely tribally owned, or communally held interests. Insofar as 
those claims go, the Crow Tribe does have a suit of that 
nature. It is ongoing and pending. And I can inform you that we 
are involved in settlement negotiations with respect to that.
    We do see a major distinction between the two.
    Mr. Rehberg. Yes.
    Mr. Yellowtail. But in summary, the Crow Tribe does support 
a broad range of options for individual account holders, and to 
the extent that there would be legislation for that purpose, we 
would be in support of that.
    Mr. Rehberg. Thank you.
    I will point out to the panel that I was aware of the 
settlement that is occurring, or the discussions with the Crow. 
I chose not to mention that. Just like you we are talking today 
specifically about individual accounts. This is not--this 
hearing does not deal in any way, shape, or form with tribal 
accounts.
    Jay.
    Mr. St. Goddard. There is a wide variety--a lot of money we 
are talking about. Right now, I don't know if litigation would 
be the answer. It is still in court. We would have to push for 
the courts to continue before we stepped in. I don't know, 
learn more about the process.
    Mr. Rehberg. Well, let me further explain, perhaps to you, 
just because you are in a little different situation as well.
    Mr. St. Goddard. Yes.
    Mr. Rehberg. There is no doubt in the minds of members of 
Congress, in the courts, that a problem exists, and the problem 
needs to be fixed. But there is differing opinion as to how far 
they want to go with the court cases.
    Sometimes we get locked into the court system. I just 
happened to marry my attorney, and so she is continually saying 
no, you don't have to sue for everything. Sometimes mediation 
is better because of the heartache, the lost time in your life 
and the money.
    But, we never want to discourage or lessen anybody's 
ability, if they do want to go through the court system, to do 
that.
    I guess the question is, if you, as a reservation, or as a 
tribe, make the determination that you want to continue on with 
the suit and have that ability, can you support legislation for 
the rest of these guys if they want to opt out?
    Mr. St. Goddard. I believe not. I mean, I you know, we 
can't --if we were involved in the --from the start --I can't 
--I don't want to speak for any of the other tribes, the other 
leaders. We would have to go back and talk to the Council what 
we would do. But I am sure some of them are for it; some of 
them are against it. But at this time, we probably would be 
willing to settle for something, mediation.
    Mr. Rehberg. OK.
    Geri?
    Ms. Small. I guess I have kind of would echo what Crow 
tribal attorney stated and also Mr. St. Goddard over here.
    I think I need to go back and actually get some official 
word back from the tribe and actually sit down with the IIM 
account holders that are present on our reservation. There is 
probably about half of them that are not on the reservation. So 
that is something that we are kind of looking into.
    When we got notification of this hearing, I was trying to 
gather people and trying to get situated and trying to get the 
Council together. It did not happen. But, you know, I was clear 
in my oral testimony on my behalf because I am an IIM account 
holder, so I would be looking at settlement.
    Mr. Rehberg. Well, I can't imagine the new legislation 
would be crafted to say that you, as an individual, even if 
your tribe made the determination that it is OK to settle, that 
you as an individual couldn't still say, no, I would rather 
continue getting my 3 cents a month until such time as this 
thing is answered because I think there is a huge pot on the 
other side of the 3 cents that you are not fessing up to. Then 
you perhaps, and I hate to use the word ``take the gamble,'' 
but sometimes it is a crap shoot in the legal system to decide 
whether holding out is going to do more for you as an 
individual.
    I just can't imagine that Congress would pass something 
that would say, Sorry, but your tribe opted in so you are in.
    Vernon?
    Mr. Hill. I guess I couldn't really answer that question 
today. I guess one reason that I couldn't answer is we are 
currently in litigation with the U.S. Government for breach of 
trust.
    Mr. Rehberg. On the individual accounts?
    Mr. Hill. No, on the tribal.
    Mr. Rehberg. On tribal.
    Well, again, this doesn't in any way, shape or form --
    Mr. Hill. On the individual accounts, I couldn't really 
make that decision for them unless we go back, like Geri 
mentioned, go back and meet with them.
    Mr. Rehberg. OK.
    Again, I don't even know if I support something like this, 
but one thing I want to throw out is that a mediator has been 
presented as an idea in the past and was mentioned several 
times today.
    But I didn't hear anything about binding arbitration or 
binding mediation. Is that something that ought to be 
considered?
    I am not sure the government could do that or would do 
that, and I am not sure that you all would want to do that. But 
is binding mediation or binding arbitration something that has 
been discussed within your various council or at all in your 
various reservations?
    I will start with you, Fred.
    Mr. Matt. Let me decline to my twin brother.
    Mr. Rehberg. OK.
    Mr. Windy Boy. What was the question again?
    Mr. Rehberg. Binding mediation or binding arbitration. Is 
that something that ought to be considered on this if we do 
legislate some kind of a settlement procedure?
    Mr. Windy Boy. I think with each tribal government, I think 
that would be--that would certainly in my case, nine minds are 
better than one. And if that so be desired, I certainly could 
get a response to you in reference to that.
    Mr. Rehberg. OK.
    Mr. Matt. And that was one of the reasons what I declined 
to Alvin, so that I would have time to --I think really as we 
all operate, and I know you have a sense for this, what we 
would do is go back and discuss it amongst our tribal councils 
and give you a response.
    Mr. Howe. Again, I would ask my legal counsel to address 
that, James Yellowtail.
    Mr. Yellowtail. Once again, for the record, Jim Yellowtail.
    The Crow Tribe's position, sir, is that we support any kind 
of option that is voluntary and represents a choice for 
individual account holders.
    I would point out that some form of mediation or 
arbitration is a component of Senate bill 1770, which is the 
bill recently introduced by Senator Campbell.
    But, the Crow Tribe's position is that we do support the 
option of remaining within the Cobell class and seeing that 
accounting process through to the end. We support that as an 
option for tribal members.
    But again, we support any broadening of the range of 
options that could be made available legislatively to account 
holders who may wish on their own individual claims to opt out 
of the process and settle.
    Mr. Rehberg. OK.
    Jay.
    Mr. St. Goddard. Yes, getting back to that, being agreeable 
to mediation, but I don't know about binding, I couldn't answer 
for that.
    The other, like Alvin has stated that there are nine other 
members that need to address that issue.
    And the other comment I had is that if the Cobell case won 
and the account holders, you know, we have individual rights as 
tribal members.
    Account holders, we don't want to overlook those, and we 
need to see where they're coming from.
    But on the binding part, that would be a stickler, because 
I have yet to see the government binding any agreement that we 
have had in the past or so forthcoming. That would be my 
comment.
    Mr. Rehberg. All right.
    Geri.
    Ms. Small. You got everybody stumped here when you said 
``binding mediation and binding arbitration.''
    I guess if it was voluntary, I could see that, but not if 
it is binding mediation or binding--
    Mr. Rehberg. OK.
    Vernon?
    Mr. Hill. I guess on that point, I couldn't give you an 
answer today, but what we will do is we will go back and work 
with our attorneys on that and give you an answer.
    Mr. Rehberg. I am not saying that it is anything that is 
ever going to be included. It is just one of those things that 
pops into your mind when we are trying to find some finality so 
we can put our hands around it.
    Well, again, I thank you.
    And there may be other questions from other Committee 
members. We will keep the hearing record open for a period of 
time for them to do that so you can respond with any other 
information you might have that you would like to share with 
us.
    Again, I thank you for taking the time to be with us. It 
means a lot to us that you can be here. And at this time, then, 
I will excuse this panel and invite Panel No. 2 up.
    [Off the record.]
    Mr. Rehberg. Again, welcome. Nice to have you here. It is a 
little easier with a smaller panel now, a little more intimate, 
and thanks.
    And why don't we begin with you, sir.
    Mr. Main. Start out?
    Mr. Rehberg. Yes.

 STATEMENT OF JEROME MAIN, MEMBER OF THE GROS VENTRE TRIBE AND 
         REPRESENTATIVE OF THE FORT BELKNAP RESERVATION

    Mr. Main. My name is Jerome Main. I am a member of the Gros 
Ventre Tribe and a representative for the Fort Belknap 
Reservation, and want to thank you on behalf of the tribe for 
bringing this meeting together and giving tribes an opportunity 
to provide input on this important issue.
    I come from the Fort Belknap Reservation, which is 
comprised of about 675,000 acres and about 5,300 members. Gros 
Ventre and Assiniboine Tribes, and we are an IRA Tribe, which 
means that we accepted the Indian Reorganization Act of 1934.
    Our reservation is about 95 percent trust land. We have 
only 5percent that is in fee status. We are not affected like 
other tribes that were unfortunately affected by the Homestead 
Act, so we only have 5 percent of fee land on the reservation. 
I feel very fortunate in that respect.
    I would like to say starting out that the settlement offer 
is kind of a touchy issue. I just came from a meeting about 2 
weeks ago of the Land Tenure Foundation. Its a foundation that 
is an organization that is made up of Indian tribes that has to 
do with keeping Indian land in trust, Indian land in trust and 
finding methodologies and ways to manage land better, keeping 
land in trust.
    The settlement of some of the greatest minds, I think, in 
managing Indian tribes and managing Indian trust lands at that 
meeting, and one of the settlement offers that was thrown out 
was a $143 billion that Indian tribes --that the settlement 
offer that should be excepted by Indian tribes for the Cobell 
case.
    And in the Cobell case, as we know, is not about money. It 
is about mismanagement of lands and resources in Indian 
country. And this $143 billion is a--you know, I don't know 
where this figure came from, but there has been individuals 
that have testified before involving a settlement--some 
settlement issues of individuals involved since 1996 and 1994, 
the Reform Act, and they have thrown out similar figures of 
money that should be a settlement.
    And I think it is kind of important that individuals and 
individuals and tribes as well be involved in discussions 
about--and the previous panel about how we should settle. And I 
think the Tribes themselves should have very serious 
discussions about that process.
    In our particular tribe, we have our initial allotment, 
1921, of our lands. We have 1,296 people that were originally 
allotted on our reservation. Of that figure, now we have 4,000 
land holders of undivided heirship lands.
    Of that figure, every one of those individuals who own land 
have an IIM account. And when you talk about IIM accounts in 
Indian country probably every Indian at one time or another has 
an IIM account because if you have settlements of judgments, 
Treaty Funds, or whatever, then you have an IIM account. You 
have to have someplace to reconcile that money. So probably 
everybody has an IIM account when you talk about settlements, 
payment of judgments and settlements.
    And settling the accounts, I was a previous employee of the 
Department of Interior, Bureau of Indian Affairs for about 
thirty years, and I was familiar with the record systems. The 
record system consists of probably the guidelines of the 
Internal Revenue Service as well the--I can't think of the 
other organization, Federal organization--but, General Services 
Administration. We have to follow those guidelines in 
establishing records, a system of records, and they provide you 
with the authority to destroy records under that system.
    So, when you talk about a historical accounting, how can 
you have a historical accounting without records? There are no 
records.
    In the proposed legislation here today, you talk about 
setting up an organization of IMACS, a task force. Our position 
from the tribe has always been that Indian tribes or Indian 
individuals should be party to any task force that has to do 
with litigation or any discussions about Indian country, and it 
says nine members and made up of the minority leader of the 
House, the Senate Speaker. I think that Indian tribes or Indian 
leaders should be a part of this process, you know, the body 
made up for that.
    As we are meeting here today, the BIA is setting up a 
meeting in Las Vegas to talk about trust reform and their plans 
for reorganization. And it is basically their plan; it is not 
the Indian tribes' plan. We didn't have too much voice.
    We did at one time in a task force but, that task force was 
abolished. And a lot of the plans that they have in place were 
not part of--the Indian tribes didn't have any input in that 
process.
    So that is--our Tribes basically boycotting that because we 
don't agree with the reorganization of trust reform concept 
that they have in what they call a Departmental Manual, which 
provides an individual by the name of Ross Swimmer, who is head 
of the OST, provides that individual with an enormous amount of 
authority along with the Assistant Secretary of the Interior. 
And we object to that because it fragments services to Indian 
tribes and is not in the best interest of Indian land holders.
    Our position for the tribe, for the two tribes at Fort 
Belknap, is to basically run our programs rather than have some 
individual run our own programs.
    Why would you have someone, you know, hand someone your 
checkbook? You wouldn't do that. We have to run our own 
programs and learn how to run our own programs.
    And our tribe has been running programs for over 20 years 
under the 638 contract. And under that concept, under the Anglo 
concept, we have been managing our own lands for about 25 years 
through CFR 638.
    But, you know, our legends say that we have been managing 
our lands for a long time. I mean, 40,000 years we have been 
managing our lands and resources. So we know how to manage our 
lands and resources.
    And the last thing I would like to point out is in talking 
about a settlement, why can't we in some way set up an initial 
account and pay those individuals who are elders who have been 
waiting for these kinds of things for years. Why can't we set 
up an initial account and compensate those elders before they 
pass on, and then establish some kind of a formula that they 
would be reimbursed, or the account for the tribe would be 
reimbursed or go into some type of probate? I think that would 
be a fair and equitable thing to do right now for Indian 
elders. They have been waiting a long time.
    That kind of concludes my testimony today Senator--
Congressman Rehberg.
    Mr. Rehberg. Thank you.
    Mr. Main. I think that I want to thank you for--we will 
take a formal position--when I go to the reservation, we will 
take a formal position by resolution and provide you with a 
formal paper.
    Mr. Rehberg. Great. Thank you.

STATEMENT OF MAJEL M. RUSSELL, ATTORNEY AT LAW, INDIVIDUAL CROW 
                        TRUST LANDOWNER

    Ms. Russell. Good morning, Honorable Congressman Rehberg. I 
am honored to be here at the invitation of Congressman Pombo, 
Chairman of the House Resources Committee.
    My name is Majel Russell, and I am here presenting this 
testimony at this field hearing as an individual Indian account 
holder. I am an enrolled member of the Crow Tribe of Indians, 
and I own trust land on Crow Indian Reservation.
    Although I am here in my capacity as an individual Indian, 
I have gained considerable experience regarding the complex 
issues surrounding the Department of Interior's management of 
the Indian Trust in my legal practice.
    Further, as an attorney for the Crow Tribe in its 
litigation against the United States for trust mismanagement I 
am fully aware of the rulings issued by Judge Lamberth in the 
Cobell v. Norton litigation.
    As a member of the class of plaintiffs in the Cobell v. 
Norton litigation, I understand that the lawsuit against the 
United States was initiated to provide me, as a land holder, 
with a full and valid accounting of the activity in my 
Individual Indian Money account. I have understood that a 
victory in the lawsuit will not result in money damages for me, 
but only a statement of activity in my account from which then 
I can assess whether or not I have suffered losses. If I 
determine that I have suffered losses, then I would need to 
proceed with further litigation to collect money damages in 
another form.
    The Cobell v. Norton litigation has been instrumental in 
revealing the deficiencies in BIA management in trust assets. 
Due to the litigation, congressional attention has finally been 
focused on the daunting tasks of managing Indian trust lands. 
Specifically, the efforts to resolve the fractionated land 
problem, to streamline and simplify the probate of Indian lands 
and to overhaul the day-to-day business processes have long 
been overdue. However, the Cobell litigation has now reached a 
point where one must consider whether continued litigation will 
be best to serve all the varying members of the plaintiff's 
class.
    My landholdings on the Crow Reservation are of two types. I 
own land with my mother and my two aunts as ``competent'' Crow 
Indians. Crow tribal members were designated competent Indians 
by Congress in 1948, and as such, we have the right to 
negotiate encumbrances on our lands and receive direct payment 
from the lessee.
    I also own lands with multiple owners that are fully 
managed by the BIA, as any tract at Crow with five or more 
owners are completely under BIA management. My family and I 
know where our land is, how much acreage we own and the value 
of that land for leasing purposes.
    For those lands we hold as competent Indians, we determine 
who we chose to enter into leases with. We negotiate the rates 
and the terms of the compensation.
    For those lands managed directly by the BIA, I receive 
statements from the Office of Trust Funds Management quarterly, 
or more often if I have funds that have been deposited into my 
IIM account and then forwarded to my bank account.
    During the years that the land that I have inherited were 
in probate, which was a total of 7 years, I was aware of the 
trespass upon those lands, the use of the lands without leases 
and leases of the lands under fair market value, all during the 
BIA management period.
    However, these mismanagement issues and their financial 
impact would not be revealed by an extensive accounting. 
Instead, upon finalization of the probate, my family and I took 
administrative action against the BIA and also actions against 
those persons who were trespassing on our lands.
    I point this out because I believe that there is a serious 
misunderstanding on exactly what the Cobell litigation can 
accomplish in terms of misdeeds against the Indian land.
    Resource mismanagement issues are not a part of the Cobell 
litigation. Thus, for me as an individual landowner, I support 
options to consider to provide me a financial benefit for my 
trust accounting claim against the DOI short of a historic 
transaction-by-transaction accounting of my IIM account and the 
accounts of my predecessors from whom I inherited lands.
    Presently, as an owner of Crow Reservation trust lands, I 
would like to see an improvement in the delivery in services by 
the BIA. I would like to see the resources of the agency BIA 
office increased to allow for the efficient and timely 
processing of conveyance documents, lease approvals, appraisals 
and surveys.
    I am concerned that a redirection of funds to long-term 
litigation will not allow me to best use services available for 
land consolidation and to possible even finance individual 
landowners like myself to purchase other fractionated lands and 
assist with that problem.
    The current lack of resources to the agency office has 
resulted in a poor delivery of service to Crow landowners. 
Logically, the task of a full transaction-by-transaction 
accounting for all IIM account holders will only impede the 
improvement of those services further. Additionally, I cannot 
believe that Congress will elect to fully fund the accounting 
process detailed in the Cobell structural injunction.
    Thus, I support the exploration of options from which I, as 
an individual, can voluntarily elect to utilize to resolve my 
claim against the United States as an individual trust 
landowner.
    I believe there are several viable options that should be 
considered. One viable option that would be to calculate a 
value of my claim based upon certain criteria, such as the 
number of acres, the length of time that I have owned the land, 
the type of land. Then I could chose to accept the value of my 
claim and forgo my right to an accounting. This option would 
allow me to receive a financial benefit in the near future and 
save me from the lengthy document collection process that would 
be necessary to conduct a full accounting.
    While I speak only for myself, this option would also allow 
those individuals who have waited many years for some 
resolution of their claims to achieve that resolution during 
their lifetimes.
    Of course, this option, while it is workable for me, may 
not be workable for others, and I believe such a buy-out plan 
must be completely voluntary.
    Another option would be to develop a process such as that 
outlined in S. 1770, the legislation that we have referred to 
here today that was introduced by Senator Campbell, which 
allows an individual to accept an account balance after an 
accounting is conducted by a task force of experts.
    While that legislation needs to be developed in much 
greater detail and explored, I do believe that there are some 
general concepts there that are viable options for individual 
landowners.
    Without options for settlement, I will be forced to remain 
in the Cobell lawsuit. Instead, I prefer to have options to 
seek the best resolution of my claim against the United States. 
Having options is only a matter of fairness and a recognition 
of my right as an individual landowner.
    Thank you.
    [The prepared statement of Ms. Russell follows:]

          Statement of Majel M. Russell, Attorney at Law, and 
                  Member of the Crow Tribe of Indians

    Good Morning, Honorable Congressman Rehberg. I am honored to be 
here at the invitation of Congressman Pombo, Chairman of the House 
Committee on Resources. My name is Majel Russell and I am here 
presenting testimony at this field hearing as an Individual Indian 
Money account holder. I am an enrolled member of the Crow Tribe of 
Indians and own trust lands on the Crow Indian Reservation.
    Although I am here in my capacity as an individual Indian, I have 
gained considerable experience regarding the complex issues surrounding 
the Department of Interior's management of the Indian trust in my legal 
practice. Further, as an attorney for the Crow Tribe in its litigation 
against the United States for trust mismanagement, I am fully aware of 
the rulings issued by Judge Lambreth in the Cobell v. Norton 
litigation.
    As a member of the class of plaintiffs in the Cobell v. Norton 
litigation, I understand that the lawsuit against the United States was 
initiated to provide me with a full and valid accounting of the 
activity in my Individual Indian Money account. I have understood that 
a victory for the plaintiffs in the litigation will not result in money 
damages for me, but a statement of activity from which I can assess 
whether or not I have suffered losses in my IIM account due to 
Department of Interior management. To collect upon determined losses 
will necessitate further litigation.
    The Cobell v. Norton litigation has been instrumental in revealing 
the deficiencies in BIA management of trust assets. Due to the 
litigation, Congressional attention has finally been focused on the 
daunting tasks of managing Indian trust lands. Specifically, the 
efforts to resolve the fractionated land problem, to streamline and 
simplify the probate of Indian lands and overhaul day-to-day business 
processes have been long overdue. However, the Cobell litigation has 
now reached a point where one must consider whether continued 
litigation will best serve all the members of the plaintiff's class.
    My land holdings on the Crow Reservation are of two types. I own 
land with my mother and two aunts as ``competent'' Crow Indians. Crow 
Tribal members were designated competent Indians by Congress in 1948 
and, as such, we have the right to negotiate encumbrances on our lands 
and receive direct payment from the lessee. I also own lands that are 
fully managed by the BIA, as any tract with five or more owners on the 
Crow Reservation are managed by the BIA. My family and I know the 
acreage we own, where our lands are located, and the value they have 
for leasing and other purposes. For those lands we hold as competent 
Indians, we determine who we choose to enter into leases with, 
negotiate the rates and terms of compensation. For those lands managed 
directly by the BIA, I receive statements from the Office of Trust 
Funds Management quarterly, or more often if funds have been deposited 
into my IIM account and forwarded to my bank account.
    During the years that the lands that I inherited were in probate, a 
total of seven years, I was aware of trespasses upon the lands, use of 
the lands without leases and leases of the lands under fair market 
value. However, these mismanagement issues and their financial impact 
would not be revealed by an extensive accounting. Instead, upon 
finalization of the probate, my family and I took action to rectify 
these mismanagement issues. Resource mismanagement issues are not a 
part of the Cobell litigation. Thus, for me as an individual landowner, 
I support options to consider to provide me a financial benefit for my 
trust accounting claim against the DOI short of a historic transaction 
by transaction accounting of my IIM account and accounts of my 
predecessors from whom I inherited lands.
    Presently, as an owner of Crow Reservation trust lands, I would 
like to see an improvement in the delivery of services by the BIA. I 
would like to see the resources of the agency BIA office increased to 
allow for the efficient and timely processing of conveyance documents, 
lease approvals, appraisals and surveys. The current lack of resources 
to the agency office has resulted in a poor delivery of service to Crow 
landowners. Logically, the task of a full transaction by transaction 
accounting for all IIM accounts will only impede the improvement of 
services further. Additionally, I cannot believe that Congress will 
elect to fully fund the accounting process detailed in the Cobell 
structural injunction.
    Thus, I support the exploration of options from which I can 
voluntarily elect to utilize to resolve my claim against the United 
States as an individual trust landowner. I believe a viable option 
would be to calculate a value of my claim based upon certain criteria, 
such as number of acres, length of ownership, and type of lands. Then I 
could choose to accept the value of my claim and forego my right to a 
full and valid accounting. This option would allow me to receive a 
financial benefit in the near future and save me from the lengthy 
document collection process necessary to conduct an accounting. Of 
course, this option, while workable for me, may not be workable for 
others and I believe such a ``buy-out'' plan must be completely 
voluntary. Another option would be to develop a process such as that 
outlined in S. 1770, the legislation recently introduced by Senator 
Campbell, which allows an individual to accept an account balance after 
an accounting conducted by a task force of experts. S. 1770 
contemplates the development of a practicable accounting method.
    Without options for settlement, I will be forced to remain in the 
class of the Cobell lawsuit. Instead, I prefer to have options to seek 
the best resolution of my claim against the United States. Having this 
choice is only a matter of fairness and a recognition of my rights as 
an individual landowner.
    Thank you.
                                 ______
                                 
    Mr. Rehberg. Thank you.
    And last but not least, Mr. Shields, welcome. Nice to have 
you here, and please give my regards to Arlyn when you get 
home.

  STATEMENT OF CALEB SHIELDS, CHIEF OF STAFF, ASSINIBOINE AND 
           SIOUX TRIBES OF THE FORT PECK RESERVATION

    Mr. Shields. Thank you, Congressman Rehberg. The Chairman 
also sends his regards to you.
    As you are probably aware, the Fort Peck Tribes are--this 
is election day for the Tribal Council, and they had their 
final meeting yesterday. They designated me to put together the 
testimony and to make appearances on behalf of the Tribes here 
today.
    I would like to thank you for bringing the issue here to 
Montana to hear our views on the Cobell litigation.
    I also want to thank all of the other tribal leaders here 
today that came to present their views because I think this is 
very important for the tribes to come forward and make their 
case on their views on the Cobell litigation.
    I just want to step back a little bit and talk about the 
reorganization. Our tribes, and many of the tribes are aware 
over the years what has happened to any reorganization of the 
Bureau of Indian Affairs.
    You know, every time they had a reorganization, the only 
people that benefited from reorganization was the top level 
people back in Washington, D.C. They got higher rates, 
positions, bonuses, you know, because they had more 
responsibility.
    And the other recent reorganization had to do when the 
established area offices. Again, more higher positions away 
from the reservations and bonuses that went along with their 
responsibilities.
    So, in 1994, when the Cobell litigation first started, 
although we were glad that the Cobell litigation has brought 
this issue to the forefront, we are fearful, and rightfully so 
that what would come out of the whole litigation is again 
another reorganization, which we see--with more positions, 
higher pay, more bonuses and responsibilities.
    That happened with --when they established area offices. 
Again, they took functions of agencies on the reservations away 
from the reservation to--you know, like here in Billings.
    So that is why we opposed the reorganization from the very 
start, the BITAM proposal of Secretary Norton, because we knew 
what would come out it.
    And I think there is a letter attached to my testimony that 
we wrote to Norton back in December of 2002. Also, it makes 
reference to our testimony at all of the regional hearings that 
were held on that.
    So I think our position has been right all along. We also 
made reference that eventually this would end up in the hands 
of Congress, and we are glad to see this Committee come here to 
address that.
    I am here today representing the Fort Peck Tribe. We have, 
I think within the next couple of months, our enrollment will 
peak at around 12,000 members. Of that membership, we have, as 
of yesterday, 8,671 IIM account holders.
    Of course, many of those are original allottees and owners 
of fractionated heirship properties on the reservation.
    So we are pleased that the Committee is here today to 
address the Cobell litigation and to look for ways to resolve 
the trust fund litigation.
    I think settling Cobell, in our view, should include 
providing damages for past mismanagement and implementing 
reforms to protect our trust assets for the future.
    And we have serious concerns, as I said earlier, with the 
current Interior Department's reorganization. We have 
repeatedly testified at the Department's regional hearings that 
any trust reorganization of the Bureau should include infusing 
additional resources where they're actually needed, at the 
reservation level.
    This is where the trust lands are located; this is where 
the BIA's legal responsibility to Indians must be focused. And 
creating additional levels and shuffling of personnel at the 
Central Office will not enhance or improve the quality of the 
judiciary performance.
    And we urge this Committee to continue to monitor and seek 
reports on how the Department's trust reorganization plan is 
really working in communities like ours at Fort Peck.
    The Fort Peck Tribes support proper efforts to settle the 
Cobell litigation. And it has become very clear to us from the 
Cobell litigation that the Department cannot do the historical 
accounting that the court has ordered.
    But what has been obvious from the Department's conduct in 
Cobell is that the Department lacks the ability, they lack the 
desire and, in some instances, the resources to carry out its 
duty under the law.
    The government cannot, or the government has simply shown 
an inability or unwillingness to comply with the normal court 
processes. And we strongly urge and support Congress stepping 
in and working with the parties to determine how best to 
approach this matter.
    While we do not have a specific legislative proposal to 
offer to the Committee today, we would urge the Committee to 
move forward using the following three principals:
    First, any proposal for settlement of trust funds by 
Congress must be based on a premise that the United States is 
liable for the mismanagement of trust funds. So the question of 
whether the United States is liable for its actions should be 
answered in the affirmative in any legislative solution.
    Second, with the United States' liability established, it 
is critical that Congress establish a fund within the Treasury 
that would be available to the trust beneficiaries. We do not 
today suggest a figure as an appropriate amount of this fund. 
We recommend that Congress work with the interested parties and 
outside experts to develop a range regarding the appropriate 
amount for this fund, and we would recommend that the money 
allocated to this fund should not come from the Programs 
accounts of the Department of Interior, as it makes no sense to 
pay for the government's past misdeeds by diminishing funds for 
current Indian needs.
    And we agree with the many statements from Congress that 
the funding to resolve this has been too long directed to the 
lawyers, accountants, and system development and not to 
providing the benefit to Indian people.
    The third principle is Congress should establish a fair 
process for allocating to the IIM account holders for the 
appropriate share of the fund established by Congress.
    As one possibility we think a proposal similar to this, and 
Senate bill 1770 would be a viable option in this regard. And 
once the methodology is established, the appropriate share of 
the fund would be offered to each individual account holders.
    If an account holder accepts the payment, the United 
States' past liability to that account holder would be 
resolved, and that account holder would no longer be part of 
the Cobell litigation.
    If an account holder does not accept the offer of 
settlement, he would remain--he or she would remain in the 
Cobell litigation.
    In our view, this kind of approach would have considerable 
benefits. First, it would provide a significant sum for 
resolution of this matter.
    Second, it would provide a participatory process for 
developing a fair and simple methodology for distributing that 
sum.
    Third, it would provide certainty to those account holders 
who wish to resolve this matter relatively quickly rather than 
proceed with the uncertainty of litigation.
    And fourth, it would provide everyone with a choice. We 
think legislation with these basic elements, refined through a 
consultation with Indian country, would go a long way toward 
resolving this matter.
    And I would like to close by also mentioning that in our--
over the years we have circulated to members of Congress and 
the Montana delegation's office, to the Secretary of the 
Interior and to the Deputies, we had requested a 5-year 
demonstration project to how accountability should be managed 
at the reservation level. But, so far that hasn't been 
accomplished by our tribes.
    So, we are still requesting a 5-year demonstration project 
as a direct service tribe. You know, we don't-- some tribes are 
compacted, some are self-governed. But within the Bureau, we 
are remaining within the--as a direct service tribe, and we 
feel that whatever the 3-to-5-year demonstration project would 
show Congress how these accounts could and should be managed.
    So with that, Mr. Rehberg, we thank you for coming here 
with your capable staff to hear the concerns of the tribes.
    [The prepared statement of Mr. Shields follows:]

   Statement of Caleb Shields, Chief of Staff, Assiniboine and Sioux 
                  Tribes of the Fort Peck Reservation

    Mr. Chairman and members of the Committee, my name is Caleb 
Shields. I am the current Chief of Staff to the Chairman of the 
Assiniboine and Sioux Tribes of the Fort Peck Reservation. I have in 
the past served as Chairman and for many years as a Board member for 
the Tribes. I would like to thank the Committee for this opportunity to 
testify. In particular, I would like to thank my Congressman Denny 
Rehberg, who has been an outstanding advocate for the Tribes of this 
State and has continuously demonstrated his commitment to work on 
behalf of Indian people.
    The title of today's hearing is: ``Developing a Legislative 
Solution to the Indian Trust Fund Law Suit.'' The Fort Peck Tribes 
agree that it is important for Congress to look for ways to resolve the 
Cobell trust funds litigation. At the same time, that trust funds 
litigation is a symptom of the deeper problem--that the government has 
failed over the years to properly manage Indian trust assets. This 
remains the core of the problem--as the government is still unable to 
properly fulfill its trust duties as enumerated by the District Court 
in the Cobell litigation. As a result, in our view, consideration of 
how to resolve Cobell must be coupled with discussion on the efforts to 
reform the trust resource management system so that, in the future, the 
government will not repeat the mismanagement that led to the Cobell 
case. Settling Cobell, in our view, should include providing damages 
for past mismanagement and implementing reforms to protect our trust 
assets for the future.
    The Fort Peck Tribes have serious concerns with the current 
Interior Department reorganization efforts. We have repeatedly 
testified at the Department's regional consultation hearings that any 
trust reorganization of the BIA should include infusing additional 
resources where they are actually needed to provide the greatest 
benefits to tribes and individual Indians, which is at the Reservation 
level. Additional funds and resources are needed to increase local 
staff, facilities and equipment at the local BIA agencies, where all 
documents and transactions regarding trust matters originate. This is 
where the trust lands are located, and this is where the BIA's legal 
responsibility to Indians must be focused. Creating additional levels 
and shuffling of personnel at the Central Office will not enhance or 
improve the quality of the fiduciary performance. Rather, the 
Department's plan to centralize all of the trust functions away from 
the reservation level will continue to result in the loss of funds 
without solving the basic problem of accountability. We urge the 
Committee to continue to monitor and seek reports on how the 
Department's trust reorganization plan is really working in communities 
like mine at Fort Peck.
    The Fort Peck Tribes support proper efforts to settle the Cobell 
litigation. In our view, the Cobell litigation has provided an 
important service of bringing the trust mismanagement issue more 
broadly to the attention of the government and the public. The Cobell 
litigation has clearly established that there has been a serious 
mismanagement of Indian resources and violation of the federal trust 
responsibility owed to Indian account holders, for which the United 
States now owes restitution. Thus, the Cobell litigation, despite its 
cost and long duration, has provided a significant benefit to Indian 
country.
    It has become clear from the Cobell litigation that the Department 
cannot do the historical accounting that the Court has ordered. This is 
not to say that the Court is wrong in stating that the Department has a 
duty to provide a historical accounting. Clearly, the Department does 
have that responsibility. But, what has been obvious from the 
Department's conduct in Cobell is that the Department lacks the 
ability, the desire, and, in some instances, the resources to carry out 
its duty under the law. So, while the United States has a duty to 
provide restitution to the thousands of Indian account holders whose 
funds and resources have not been properly managed, we do not believe 
that is likely to be achieved through the normal process of litigation. 
The government has simply shown an inability or unwillingness to comply 
with normal court processes.
    So, if the government has, in a sense, disabled the courts, where 
do we go to resolve the mismanagement of the trust assets? While there 
is no single answer, we strongly support Congress stepping in and 
working with the parties to determine how best to approach this matter. 
While we do not have a specific legislative proposal to offer the 
Committee today, we would urge the Committee to move forward using the 
following three principles.
    First, any proposal for settlement of trust funds by Congress must 
be based on the premise that the United States is liable for the 
mismanagement of trust funds. It is clear from the record in Cobell--as 
well as the extensive record in numerous Congressional hearings over 
the course of many years--that the United States has failed in its 
legal obligations to properly manage and account for trust funds. Other 
legislative proposals, including S. 1770, which was recently introduced 
by Senator Campbell, would leave government liability as an open 
question to be decided by a third party. We believe that the record 
already establishes that the United States has breached its legal 
obligations regarding the management of trust assets. So, the question 
of whether the United States is liable for its actions should be 
answered in the affirmative in any legislative solution.
    Second, with the United States' liability established, it is 
critical that Congress establish a Fund within the Treasury that would 
be available to the trust beneficiaries. This Fund must be sufficient 
to demonstrate the United States' commitment to resolving this issue. 
We do not today suggest a figure as an appropriate amount of this Fund. 
We recommend that Congress work with the interested parties and outside 
experts to develop a range regarding the appropriate amount for this 
Fund. Then Congress could determine, from within that range, the amount 
of the Fund. We recommend that the money allocated to this Fund should 
not come from program accounts of the Department of the Interior--as it 
makes no sense to pay for the government's past misdeeds by diminishing 
funds for current Indian needs.
    The establishment of such a Fund would demonstrate to the Indian 
beneficiaries that the United States accepts responsibility for its 
mismanagement and is willing to put forward some measure of restitution 
for the benefit of the Indian beneficiaries. We agree with the many 
statements from Congress that the funding to resolve this has been for 
too long directed to the lawyers, accountants, and systems development 
and not to providing a benefit to Indian people. A Congressionally 
established Fund to pay damages for government mismanagement is a 
better expenditure of funds--as it will really help the Indians who 
have suffered because of the government's misdeeds.
    Third, Congress should establish a fair process for allocating to 
the IIM account holders an appropriate share of the Fund established by 
Congress. How to do this surely will not be simple and various 
approaches should be considered. As one possibility, we think a 
proposal similar to that in S. 1770 may be a viable option in this 
regard. Under this proposal, Congress would establish an entity with a 
broad range of expertise, which would be charged within a specific time 
period, with developing a methodology for allocating the Fund to the 
individual account holders. While S. 1770 does not make this clear, in 
our view, the development of the methodology must be an open process 
with sufficient opportunities for consultation and comment by tribes 
and individual beneficiaries. In addition, the methodology selected 
must be relatively simple or the process will be become burdensome or 
unworkable. The final methodology could be published in the Federal 
Register.
    Once the methodology is established, the appropriate share of the 
Fund would then be offered to each individual account holders. If an 
account holder accepts the payment, the United States' past liability 
to the account holder would be resolved and that account holder would 
no longer be part of the Cobell litigation. If an account holder did 
not accept the offer of settlement, he would remain in the Cobell 
litigation.
    In our view, this kind of approach would have considerable 
benefits. First, it would provide a significant sum for resolution of 
this matter. Second, it would provide a participatory process for 
developing a fair and simple methodology, for distributing that sum. 
Third, it would provide certainty to those account holders who wish to 
resolve this matter relatively quickly rather than proceed with the 
uncertainty of litigation. And fourth it would provide everyone with a 
choice. While there is no single approach that would please everyone, 
we think legislation with these basic elements--refined through 
consultation with Indian country--would go a long way toward resolving 
this matter.
    Again, I want to thank the Committee for its work on this issue and 
would welcome the opportunity to answer any questions that you might 
have.
                                 ______
                                 
    Mr. Rehberg. Thank you, Caleb, once again--I guess I am a 
chairman in training because I forgot to swear you in.
    Knowing you all personally, I am going to assume that you 
told the truth, and we will dispense with the oath, if that is 
OK.
    Well, it is OK. Congratulations in getting out from under 
the rules again.
    And thank you. Again, I appreciate you being here on a 
Saturday, almost afternoon, and taking time out of your busy 
schedules. I would ask a specific question, and while you are 
not here necessarily representing yourselves as individual 
account holders, Caleb, I assume that you are also an 
individual account holder--
    Mr. Shields. Yes.
    Mr. Rehberg. --but since you are here specifically 
representing individual account holders, could you explain to 
me just a little bit about how that works. You are in a 
partnership with your mom and your aunts. Do you own fee land?
    Ms. Russell. Trust land.
    Mr. Rehberg. Trust land.
    But you, then, are the designee for that trust land.
    How do you become an individual account member of trust 
land, and then what kind of leases are there? Can you give me 
an estimate of what you think somebody owes you for the use of 
that property forever--for however long?
    It would be nice to know in my own mind what an example is.
    Ms. Russell. Well, I can speak for just for my experience, 
but I think that my experience is probably fairly typical for 
people at Crow.
    I first had an IIM account created for me in 1961, when the 
tribe first received a settlement on the Yellowtail Dam. When 
we first received payment for the condemnation up there and 
then created the Yellowtail Dam, then each of the tribal 
members received a payment. So an IIM account was created for 
me at that time, as I am sure a lot of other tribal members.
    So that account was probably on record. And after that 
payment was disbursed to me, there was probably no activity for 
many years until I inherited land. And I inherited land from my 
grandparents, along with my mother and two aunts.
    Now, my inherited lands are two different categories. One 
category, the lands I inherited are considered competent--I am 
a competent Indian to manage those lands.
    And I know that is complicated, but that means that if 
there-- if there are less than five owners, then we do all of 
our own land management. We have undivided interests, so we own 
that land as common owners, and we basically determine what we 
think the land is worth in terms of an agricultural lease; we 
negotiate the terms of that lease, and we receive payment 
directly.
    Mr. Rehberg. But the land itself is owned by the tribe?
    Ms. Russell. The land itself, the title to the land is held 
by the United States, and I own it as an individual along with 
the other owners. We own it as individual landowners of land in 
trust, but the actual title of it is held by United States.
    Mr. Rehberg. OK.
    Ms. Russell. It is not fee land.
    Mr. Rehberg. But you could, in fact, put a fence around it, 
or is it--
    Ms. Russell. Oh, yeah, we could put a fence. You run it 
just like you do any other property that you would own. You 
have--
    Mr. Rehberg. Then over the years, who has that land been 
leased to that you don't know whether you have been receiving--
I understand the trespassing aspect of it because if it is 
open, then other people are running cattle on it and receiving 
a grass benefit, which you probably could have stopped by 
fencing, but that is not always--.
    Ms. Russell. Right.
    Well, let me just--those lands that I am talking about that 
we manage ourselves as competent Indians are in a different 
class than probably the majority of lands held by all of the 
IIM account holders.
    Those lands are--there is another type of land that I own 
with my family, and those are lands that are fully managed by 
the BIA. They do all of the advertisement of the lands for 
lease. They would negotiate the leases themselves; they would 
collect the money and disburse the money. That is in a 
different category. And they--
    Mr. Rehberg. And that would be essentially your Yellowtail 
example, the lands underneath the water have been paid for--
    Ms. Russell. To every tribal member, yes.
    Mr. Rehberg. But did they set up an account that was 
supposed to see ongoing revenue for--
    Ms. Russell. No, darn it.
    Mr. Rehberg. OK. Yeah.
    Ms. Russell. No, they didn't do that.
    Mr. Rehberg. OK.
    Ms. Russell. That was a one-time payment.
    Mr. Rehberg. Let me ask the other two gentlemen then.
    Jerome?
    Mr. Hill. I, as well, own two classes of lands. I own--in 
1952, an account was set up for me when my father passed away, 
and it went into probate. So I got an IIM account from that, 
and I got revenue from that. I inherited land from my father, 
and I also inherited land from my mother. That is an undivided 
heirship land they call it.
    The other, I purchased land on the reservation. So the 
undivided heirship land is managed by the Bureau of Indian 
Affairs in range units and under an established rate that they 
go and advertise these lands and then collect the money; then 
pay me my share of--
    Mr. Rehberg. Are they leasing it to other tribal members?
    Mr. Hill. It all depends. You bid on it. You bid on it.
    And then there is what they call an allocation process 
where Indian individuals can go in there for $8.50 a day, 
Indian operators can go in there and operate for that price.
    And then there are other parts of the range unit were you 
bid on it. You bid on it, and it is a competitive process.
    The lands that I own also that are purchased, I manage 
those lands as well. I manage them, and I set the price, and if 
somebody wants to use my land, they pay my price, yeah. They 
negotiate with me, not the Superintendent.
    Mr. Rehberg. OK, Caleb.
    Mr. Shields. I guess my situation is probably more typical 
in general of general Indian population. I have income, not 
much, but income, fractionated interest in the funds from farm 
land, grazing land. Also, Indians get the income from if you 
have gravel, if you have oil or gas royalty payments, they go 
into your account. But I don't have any of this except just 
small amounts of grazing and farmland income. Fractionated, you 
know--
    Mr. Rehberg. I can't imagine that your answer here would 
matter, but let me ask you the question.
    If you were to, based upon your best estimate, guess what 
you think you are owed for the term of your trust ownership, 
you personally--and if that is not the--you being an attorney, 
you know you don't want to say something on the record, because 
as soon as it is on the record--it is binding to you in the 
future.
    But, can you give me an indication--
    Ms. Russell. Yeah.
    Mr. Rehberg. --are we talking about $100, or are we talking 
about $100,000, for you individually?
    Ms. Russell. For me individually, all of those lands that 
my family and I own and manage as competent Crow Indians, we do 
all that negotiation. The only responsibility of the United 
States is to record the document.
    And so for those lands, I can say that I don't believe that 
our family would be owed anything, and I don't believe that a 
transaction-by-transaction accounting of those lands which we 
manage by ourselves would result in any sort of payment to us.
    However, the fractionated heirship lands, which have 
sometimes--I own an interest with 300 other people, or 200 
other people that are completely managed by the BIA. They are 
completely managed by the BIA, and the leases are negotiated; 
they collect from the lessees, and they disburse the funds. I 
can't accurately say exactly what I think.
    However, I, as a landowner, do pay great attention to all 
the statements that I get from OTFM, and I understand which 
lands they are encumbering, and I know where those lands are 
and what the general value is. So if I am thinking that I am 
shorted some funds there, I guess it would be because I would 
think that they are leasing those lands at under what fair 
market value might be.
    However, an accounting is not going to tell me that. An 
accounting is only going to tell me what was collected, put 
into the account, and how it was disbursed. Whether or not it 
was leased at a fair market rental value or for the best 
benefit of the beneficiaries, that accounting is not going to 
tell me that.
    Further, I have only had those lands, that management 
responsibilities since 1997, so I--my comment cannot apply 
across the board to a lot of other people.
    Mr. Shields. Yeah, there is no way I could even project 
might may be owed me, because over the years, up until 
recently, when we started getting some statements from the BIA, 
all I used to receive in the mail was a check for a certain 
amount, and it didn't tell you where it came from, Whether it 
was a--
    Mr. Rehberg. What did a typical check like that--
    Mr. Shields. Oh, you know you might get one for 40, 50 
bucks, $100, couple hundred. It changed from year to year.
    But even our little checks we got didn't say where--you 
know, was it from the farm interest or the grazing interest, 
whatever. We just got a check in the mail.
    Mr. Main. An accounting, like Majel said, an accounting 
wouldn't tell me how much money I have, you know, on the 
mismanaged part of my property.
    But there is another aspect that you'd look at, is how did 
they manage the land in terms of, for instance, if your range 
has deteriorated, your land has deteriorated to the point where 
your land right now is not worth as much as it was 20 years ago 
because of weeds and erosion and just mismanagements of those 
lands. I think there should be some kind of a formula to 
compensate me for that, for mismanaging my property.
    And just like you would mismanage a house off the 
reservation, you know, I think they mismanaged my land from 
that standpoint. There was no type of range inventory or no 
type of process in place by the government to keep that land in 
a good state where it is worth money.
    Mr. Rehberg. Just to be consistent, and this will be my 
last question with the last panel, I would like to ask you the 
question that I asked them with the opt in, opt out.
    Specifically, if we were to come up with legislation to 
give you an opportunity as individuals or as a tribe to opt out 
of the ongoing lawsuit, and I think you have already kind of 
addressed that, but just for the record, could I ask you to--
    Mr. Main. My first reaction, I guess, would be to--anytime 
that you are talking about a process and a decision like that, 
I think the individual should have the right to make that 
decision rather than me sitting here and making that decision 
on behalf of everybody. I think that is what I would say.
    Ms. Russell. Well, an individual landowner, I think that I 
should have the right to decide whether options to settle this 
claim are workable for me. And although the ongoing litigation, 
the Cobell litigation, is a class action suit, and as is 
typical of class action suits, there is little communication 
with the plaintiffs. I am not favorable to having any option of 
mine tied up in ongoing litigation for years that I would see 
no benefit from. So, yes.
    Mr. Rehberg. OK, good.
    Mr. Shields. I think as an individual, I would encourage 
endorsing legislation to that effect, but as a tribe I am sure 
the Fort Peck Tribes would support that.
    But, we would encourage--I am sure that the tribe would 
encourage that we would have community meetings with our 
membership to explain the options to them and the choice they 
have.
    Mr. Rehberg. Before I excuse you, I will make the same 
statement, and that is that the record will remain open for a 
period of time. There may be other questions from other tribal 
members.
    There is one other gentleman, and I am going to take the 
Chairman's prerogative to open up the audience for one 
additional individual, representing the Little Shell, so far 
not recognized. I am one of the supporters of recognizing the 
tribe, and I do want to recognize you, sir. I want to welcome 
you. I want to give you a brief moment to make your comment if 
you would like.
    And this is a little unusual. Normally this would not 
happen in Washington, I want you to know that, but I do respect 
your position and your attempts to be recognized. I thank you 
for taking the time to be with us today if you would like to 
say a word or two.
    Little Shell Member. Representative Rehberg, may I defer to 
the Little Shell representative?
    Mr. Rehberg. You may, and please, if she would identify 
herself for the record.
    Ms. Grant. Name is Dianna Grant, and I am a representative 
for the Little Shell Tribe.
    And if I may make a comment our Tribal Chairman, John 
Sinclair, could not be here due to another commitment, so I am 
representing the Little Shell Tribe.
    For many years my uncle, Donald Bishop from Lame Deer, had 
represented the Little Shell Tribe as the Tribal Chair, and he 
had talked about the forgotten people and the landless Indians.
    And for the record, I would like to say that I would like 
to change that legacy to the Little Shell Tribe; that we are 
strong and a continuing tribe that is getting stronger.
    I have a statement to read from John Sinclair.
    From John Sinclair, Tribal Chairman of Little Shell Tribe, 
Chippewa Indians in Montana.
    ``Please excuse the brevity of this letter. Because this 
meeting was called on short notice, and the Little Shell Tribe 
was not informed of it all, it gave me little time to research 
my response.''
    "1. Senate bill 1770 proposes an alternative settlement to 
litigation known as Cobell v. Norton. I believe that bypassing 
the judicial system through such legislation could set a 
dangerous precedent to future claims by Indians.''
    "2. There is a $10 billion cost estimate to define Indian 
trust funds. Senator Campbell's legislation would hopefully put 
these dollars toward the betterment of Indian interests. I 
agree that spending billions of dollars to a certain and 
unknown benefit to the litigants makes little financial 
sense.''
    "Therefore, please note that the Little Shell Tribe 
withholds judgment on said legislation 1770 that supports the 
decision of a majority of the tribes attending this meeting.''
    Thank you, Congressman.
    Mr. Rehberg. Thank you very much.
    Seeing no further business, I guess--
    Mr. Shields. The question on the binding arbitration--
    Mr. Rehberg. Yes, if you would like to answer that.
    Mr. Shields. I don't think the Fort Peck Tribe would 
support binding arbitration.
    Mr. Main. We wouldn't--Fort Belknap wouldn't either.
    Mr. Rehberg. I don't know if Congress would either, so I 
was just throwing that out as a point of discussion. I really 
don't want to be held to that either.
    Again, thank you for coming out today. This meeting is 
adjourned.
    [Whereupon, at 4 p.m., the Committee was adjourned.]

    [The letter submitted for the record by John Sinclair, 
Tribal Chairman, Little Shell Tribe of Chippewa Indians of 
Montana, follows:]

[GRAPHIC] [TIFF OMITTED] T0048.001


</pre></body></html>
